App. 1
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
ERIC FERRIER
Plaintiff.
v.

Civil Action No.

CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC.
BANK OF AMERICA N.A.,
LISA KEHRER, TODD STOLFA
Defendants
[JURY DEMAND]
COMPLAINT
(Filed Aug. 10, 2017)
ERIC FERRIER complaint alleges against Bank
of America N.A, formerly known as Countrywide Home
Loans Servicing LP, and CASCADE FALLS CONDOMINIUM ASSOCIATION INC and BOARD OFFICERS Lisa Kehrer and Todd Stolfa as follows:
THE PARTIES
1.

Plaintiff, ERIC FERRIER is, mentioned
herein was the title holder to the property that
is the subject of this Counterclaim, the location
of which is commonly known as 530 NW 15th
court Unit 4 Fort Lauderdale, FL 33304 (“the
Property”) which he purchased in December 12,
2006.

App. 2
2.

Eric Ferrier is a Foreign National U.S. Citizen of and as such, under Sec. 1992 of U.S. Revised Statutes he shall “ . . . have the same right,
in every State and Territory in the United
States to make and enforce contracts, to sue, be
parties, and give evidence, to inherit, purchase,
lease, sell, hold, and convey real and personal
property, and to full and equal benefit of the
laws and proceedings for the security of person
and property . . . ”

3.

Owners are informed and believe and
thereon allege that BAC HOME LOANS SERVICING LP F/K/A Countrywide Home Loans
Servicing, LP is a Texas corporation not licensed
to do business in the state of Florida. BAC was,
and is, in the business of being a “servicer” of
“federally related mortgage loans” as those
terms are defined in RESPA, 12 U.S.C. § 2602(1)
and 2605(i)(2). Owners are informed and believe
and thereon allege that BAC was and is in the
business of the collection of consumer debts, either on behalf of itself or others and it is therefore subject to the Federal Dept Collection
Practice Act, FDCPA (15 U.S.C. § 1692, et seq.)
BAC HOME LOANS SERVICING LP became
inactive and merge in July 2011 with parent
subsidiary Bank of America N.A. Bank of America, N.A. is a national bank with its principal
place of business is 100 N. Tryon Street, Charlotte, North Carolina 28255 and who purchased
Countrywide Financial Corporation and referred to collectively herein as BAC.

4.

Plaintiff is informed and believe and
thereon allege that at all times mentioned

App. 3
herein, COUNTRYWIDE BANK, FSB (“Countrywide”), was a California corporation not licensed to do business in the state of Florida; and
was and is an entity in the business of purchasing and otherwise taking assignment of consumer credit transactions. Owners entered into
a loan with Countrywide (“Loan” and in reference to all of the Loan Documents “Loan Documents”) pursuant to a promissory note (“Note”)
and secured by a mortgage (“Mortgage”) on the
Property.
OTHER PARTIES
5.

BAC which purchased Countrywide and
upon information and belief, is the successor in
interest to Countrywide and as such has assumed all liabilities and obligations of Countrywide. In the event BAC answers and responds to
the claim that it is not responsible for the actions of Countrywide or the other related and affiliated entities to Countrywide, Owners reserve
the right to add additional parties to this claim.
BAC has brought its Complaint against Owner
by its servicing agent Bank of New York Melon,
and BAC specifically alleges that it was formerly
known as Countrywide Home Servicing, LP
(“Countrywide Servicing”) and thus BAC is referenced herein with regard to the actions of
Countrywide Servicing, and the actions of its affiliates, Countrywide and Countrywide Home
Loans, Inc. (“Countrywide Home Loans”) and the
Bank of New York Melon. BANK OF AMERICA
principal address is 100 N Tryon St. Charlotte,
NC 28555.

App. 4
6.

Plaintiff is informed and believe and
thereon allege, that at all times mentioned
herein CWALT, Inc. (hereinafter “CWALT”); was
the “depositor” for loans originated by CHLS
into Mortgage backed Securities Collateralized
Debt Obligations (“CDO’s”). Upon information
and belief, CWALT is a Delaware corporation
not licensed to do business in the state of Florida
and was a limited purpose financial subsidiary
of Countrywide Financial Corporation;

7.

Plaintiff is informed and believe and
thereon allege, that at all times mentioned
herein The Bank Of New York (hereinafter
“BNY”) in Trust For the Certificate Holders of
the CWABS INC, asset-backed certificates Mortgage PassThrough Certificates, Series 2006-04,
Certificates is a banking corporation organized
under the laws of the State of New York, as trustee (the “Trustee”) for Pooling and Servicing
Agreement dated December 12, 2006 of which
the Loan is a part of Securitized Asset Backed
Receivables for Countrywide.

8.

Plaintiff is informed and believe, and
thereon allege that at all times mentioned herein
Mortgage Electronic Registration Systems, Inc.
(“MFRS”) is and was a Delaware corporation located at 1818 Library Street, Suite 300 Reston,
VA 20190 and is registered to do business in
Florida.

9.

Upon information and belief, Owner alleges
that the actions of Countrywide, CFL, CHLS,
Bank of America and their affiliates are the

App. 5
actions of BAC and that BAC is liable to Owners
for their actions.
10.

CASCADE FALLS CONDOMINIUM ASSOCIATION, INC (CFCA. Inc) is a non-profit
Florida Corporation with last known principal
address 35 NE 24TH AVE. POMPANO BEACH,
FL 33062 US. Their register agent address is
LOPEZ, CARLOS EDUARDO and Address will
be 35 NE 24111 AVE. POMPANO BEACH, FL
33062 US

11.

LISA KEHRER and TODD STOLFA were
managing Board Officers self ruling CASCADE
FALLS CONDOMINIUM ASSOCIATION INC
during the period that yield to this action. Allegations have been raised by the Parties that the
Plaintiff was harassing them in the form of frivoling claims and have wish not to disclose there
WHERE ABOUT. As the result, the Plaintiff is
limited in his ability to comply due diligence to
locate their current physical address. As a result
their mailing address would be the Association
for the purpose of this claim, C/O CFCA Inc 35
NE 24MI AVE. POMPANO BEACH, FL 33062
US.

12.

C.F.C.A. Inc is the home owner association
whose boards enter a mediation agreement with
the owner to have MOLD removed from the
UNIT 4 and WATER DAMAGES repaired on
April 11, 2011 in exchange for payments of
$10,000. Owner is informed and believe that
CFCA Inc fees collection is subject to the Federal Dept Collection Practice Act, FDCPA (15
U.S.C. § 1692, et seq.)

App. 6
13.

This non compulsory Claim arises out of a
Loan induced by fraudulent disclosures made at
closing by BAC fka CHL and related foreclosure
by their servicing agent the BANK OF NEW
YORK. It is brought by the former Owner who
has being sued for foreclosure by NBY which
lacks standing as a real party in interest to the
underlying Note and sued for foreclosure by
CFCA Inc which should have collect dues and
assessment from the lender under the Lender
condominium rider as fiduciary of the Plaintiff.
The foreclosure actions have been files in two
different State cases and at any point the owner
has been able to counter sue both parties. The
Parties have made it impossible to file FEDERAL ALLEGATIONS as a COUNTER CLAIM
to their foreclosure actions.

14.

The Plaintiff has been subject to ongoing
discrimination and the last incident occurred in
August 2016 when the Parties restricted the
Plaintiff ability to sue by and through the City
of Fort Lauderdale Attorney by the filling of Motion in bad faith. The HUD is still evaluating the
Plaintiff discrimination complaint.
JURISDICTION AND VENUE

15.

The Property which is the subject of this
complaint is located within BROWARD County
of FLORIDA. The Plaintiff has left the State of
Florida and had retained the service of a Florida
Attorney to accept service on his behalf. 28
U.S.C. § 1406(a), Section 1404(a) and § 1406(a)
protect protects witnesses and parties from an

App. 7
undue expenditure of time and money to allow
for venue in alternative districts. The Parties
have made it impossible for the Complaint to be
removed from State.
16.

The Bank of New York Mellon (BNY) servicing BAC as Trustee for the certificate holders of
the CWABS Inc, asset backed certificates, serie
2006-04 address are 1 Wall street NEW YORK,
NY 10286 and 101 Barclay St 4w, NEW YORK,
NY 10286 is servicing the BANK OF AMERICA
NA.

17.

This Court has jurisdiction under 11 U.S.C.
§ 548, 18 U.S.C. § 1344 (Fraud) and 15 USC 45
§5 (Unfair or Deceptive Acts or Practices). Venue
is proper under 28 U.S.C. § 1332(a), the parties
are citizen of different states including Florida,
North Carolina and New York states and owner
has alleged Federal questions under the Truth
in Lending Act, the Real Estate Settlement Procedures Act, the Fair Credit Reporting Act, the
Fair Debt Collection Practices Act and the Home
Ownership and Equity Protection Act. This Court
has jurisdiction under Title VII of the Civil
Rights Act of 1964, as codified, 42 U.S.C. §§ 2000 e
to 2000 e-17 and the FAIR HOUSING AMENDMENTS ACT (FHAA) and Fair Housing Act Title
VIII of the Civil Rights Act of 1968 (Discrimination) and the Uniform Commercial Code.

18.

The Plaintiff request TIMELINES TO BE
WAVED mainly because of health reasons, affirmative concealment, inability to be properly
represented by a Legal Counsel and OBSTRUCTION to the filing of CIVIL RIGHTS Allegations.

App. 8
NATURE OF THE ACTION
19.

The matters raised by the Plaintiff in his
claim cannot be viewed in a vacuum and need to
be viewed in the context of what BAC and the
related Bank of America and Countrywide entities have been doing along with their binding
agreement to the Home Owner Association as
per the Condominium rider.

20.

Upon information CFCA Inc has foreclosed
on Owner ERIC FERRIER by enforcing one side
of the settlement agreement signed on April
11th, 2011. The default judgment was appealed
by the Plaintiff upon CFCA Inc acquiring the
property for the shocking amount of $100. CFCA
Inc applied inflated late fees, interest and abusive attorney fees while failing short of removing MOLD from the unit and repairing the
water damages. The appeal having been affirmed on NO RESPONSE or what so ever to the
owner appeal brief, the owner has remand the
State Court in the form a DENOVO COUNTER
CLAIM BY AMENDEMENT WITH LEAVE OF
THE COURT under Florida Rule of Civil Procedure 1.170(f ) and rule 1.540(b)(3). The Defendant made it impossible for that Case to be
removed to the US District.

21.

Upon information and belief, BAC is foreclosing on Owners’ Property. without standing
to do so and proper service of process on ERIC
FERRIER and has sub sequentially taken the
following improper actionable wrongs against
Owner. BAC fka CHL lured Owner into a
predatory mortgage loan instrument that has

App. 9
resulted in the foreclosure complaint against
Owner with regard to his Property and the potential loss of his investment. BAC fka CHL initiated what was to be Owner’ fully-documented
Loan where it qualified Owners for the Loan by
falsifying Owners’ loan application to ensure its
approval, appraised the Property in excess of its
value, altered Loan Documents from what was
represented to be the Loan terms at the time of
the good faith estimate by changing the adjustable rate mortgage (“ARM”) converted said Loan
into a security and sold it as a Mortgage backed
Security to the CWALT Inc Trust before the closing, failed to disclose underlying market conditions which had been intentionally manipulated
by it and other financial institutions which would
result in the foreclosure of homes across America including Owners, employed “robo-signors”
to execute legal documents and initiated a complaint to foreclose without standing. The scam
was facilitated because of the Plaintiff foreign
origin and eventually prevents the Plaintiff to
qualify for a legitimate Mortgage loan.
22.

CFCA Inc and BAC fka CHL’s actions constitute false, misleading, deceptive, fraudulent,
or otherwise illegal RETALIATION conduct under the law which seeks to strip Owner, ERIC
FERRIER of everything he worked his entire
live for and to prevent him to own legitimate
real estate property.

23.

ERIC FERRIER has disputed the loan to be
a violation of the Home Ownership and Equity
Protection Act and to have right to an extended

App. 10
rescission. The lender has ignored all requests
to date and the DISCRIMINATION is ongoing.
BACKGROUND OF THE FINANCIAL
MARKETS AT THE TIME OF THE LOAN
24.

MFRS was established to track ownership
of notes and mortgages as notes and mortgages
are repeatedly sold and assigned to various parties.

25.

On August 6, 2007, the secondary mortgage
based securities (“MBS”) market stopped trading most non-conforming securities as difficulties began surfacing in AAA-rated Mortgage
Backed Securities.

26.

On August 6, 2007, American Home Mortgage collapsed when Countrywide Financial
Corporation intentionally disclosed to the Securities and Exchange Commission that “these
disruptions in the secondary market could hurt
Countrywide.”

27.

On August 10, 2007, a run on investment
banks began as the secondary MRS markets
shut down, which, in turn, curtailed new mortgage funding.

28.

In August 2007, the perceived risk regarding Countrywide MBS bonds rose. Credit rating
agencies downgraded Countrywide bonds 1-2
grades, some near ‘junk’ status causing the cost
to insure bonds to rise 22% overnight. Approximately fifty mortgage lenders filed for chapter
11 bankruptcy. Countrywide was then cited as a

App. 11
bankruptcy risk by Merrill Lynch which advised
clients to sell Countrywide stock.
29.

On August 16, 2007, the secondary market
for MBS’s declined further causing Countrywide
to draw $11.5 billion from 40 banks including
Chase.

30.

On August 17, 2007, the Federal Revenue
accepted $ 17.2 billion in repurchase agreements
for MBS to aid in liquidity thereby calming Wall
Street. To the naive unsuspecting public, this action, along with a host of others, provided BAC
tka CHI, with the ability to continue to make
loans to Owners and others even though it was
fully aware of the impending market collapse.

31.

On August 20, 2007 the Federal Revenue
waived banking regulation requirements for
Citigroup and BAC and agreed to exempt them
from rules which limited the amount federally
insured banks are able to lend to related brokerage companies – down to only 10% of the bank’s
capital. Until that time, regulations stated that
banks with federally insured deposits should
not be put at risk by brokerage subsidiaries activities.

32.

On August 23, 2007, CITI, BAC and 2 other
banks received $500 million in 30 day loans
from the Federal Reserve. Countrywide obtained $2 billion from Bank of America in exchange for stock whereby Bank of America
assumed Countrywide’s liabilities.

33.

On January 11, 2008, Bank of America offered $5.50 per share for Countrywide stock and

App. 12
purchased Countrywide for $4 billion in an all
stock transaction. Bank of America knew there
would be lawsuits but stated publicly that they
had weighed “Short term pain v. Good deal” for
Bank of America stockholders.
34.

On June 25, 2008, after numerous complaints from Illinois consumers, Illinois Attorney General Lisa Madigan’s Consumer Fraud
Bureau conducted an investigation into Countrywide Home Loans and filed a lawsuit against
Countrywide alleging fraud (“Illinois Attorney
General Complaint”).

35.

On July 1, 2008, Bank of America’s purchase of Countrywide was finalized.

36.

In August, 2009, Bank of America, as successor to Countrywide, agreed to pay $600 million to settle shareholder lawsuits over its
mortgage losses.

37.

On June 7, 2010, in a U.S. Department of
Justice press release, Clifford White III (Justice
Department Program Director of the executive
office of U.S. Trustees) stated: “Over a two year
period, the US Trustee program worked closely
with the FTC to carry out parallel investigations
relating to Countrywide’s improper conduct in
servicing home loans.”
FRAUD BY COUNTRYWIDE

38.

Serious allegations of Countrywide company practices that are imputed to BAC as successor to Countrywide, are consistent with the
specific fraudulent practices raised here by

App. 13
Plaintiff. The following is set forth to provide
the context and further support the specific allegations made herein by Plaintiff. These are
extensively detailed in The Government of
Guam Retirement Fund, et al. v. Countrywide
Financial Corporation, et al., CV11-06239 (CD.
Cal. 2000) and the following allegations 38
through 110 are taken from that complaint.
39.

Owner has been informed that Countrywide loosened and abandoned its underwriting
standards. Many of the same confidential witness accounts by former Countrywide employees are featured in the shareholders derivative
complaint – In re Countrywide Fin. Corp. Deriv.
Litig., Lead Case No. 07-CV-06293 (C.D. Cal.
2007). In denying Countrywide’s motion to dismiss the derivative complaint, the court held
that the “numerous confidential witnesses” –
whose accounts are detailed herein – “support a
strong inference of a Companywide culture that,
at every level, emphasized increased loan origination volume in derogation of underwriting
standards.” In drawing this inference, the court
noted that the allegations of misconduct came
from Countrywide employees (i) located throughout the United States; (ii) in varying levels of the
Countrywide hierarchy (including underwriters, senior underwriters, senior loan officers,
vice presidents, auditors, and external consultants); and (iii) employed at varying times. In the
court’s words, these witnesses “tell what is essentially the same story – a rampant disregard
for underwriting standards – from markedly different angles.”

App. 14
40.

Owner has been informed that an underwriter for Countrywide in the Jacksonville, Florida processing center between June 2006 and
April 2007, as much as 80% of the loans originated at Countrywide involved significant variations from the underwriting standards that
necessitated a sign-off by management. Countrywide was very lax when it came to underwriting
guidelines. Management pressured underwriters to approve loans and this came from “up top”
because management was paid, based at least in
part, on the volume of loans originated. They approve as many loans as possible and push loans
through. Accordingly most loans declined by underwriters would “come back to life” when new
information would “miraculously appear” – which
indicated to CAT1 that Countrywide was not enforcing its underwriting standards.

41.

Owner has been informed that a senior underwriter in Roseville, California from September, 2002 to September, 2006, Countrywide would
regularly label loans as “prime” even if made to
unqualified borrowers (including those who had
recently gone through a bankruptcy and were
still having credit problems). Accordingly Countrywide’s lending practices got riskier in 2006
and the Company was more lax in enforcing its
underwriting policies during that year.

42.

Owner has been informed that a former
senior underwriter at Countrywide in Independence, Ohio, between August 2006 and April
2007, the Company’s “philosophy was that you
didn’t turn down loans.” According to CW5, the
Company “did whatever they had to do to close

App. 15
loans” including making exceptions to underwriting guidelines – everyone was motivated to
increase loan volume and “approve things that
should not have been approved.”
43.

Owner has been informed that a former underwriter at Countrywide in Charlotte, North
Carolina between 1997 and 2007, there was “a
lot of pressure” on underwriters to approve a
high volume of loans in order to keep their job.
Accordingly underwriters were held to a quota
of at least eight files a day – preferably ten – and
supervisors preferred more. The Regional VP
told underwriters that “as long as you get a
CLUES Accept” they should approve the loan,
and “if you don’t do some bad loans, you’re not
doing your job.” Accordingly there were incentives at Countrywide to approve as many loans
as possible regardless of quality, the primary incentive being “keeping your job.” Underwriter
stated that s/he was ultimately let go for not approving enough loans.

44.

Owner has been informed that a former
underwriter at Countrywide’s Full Spectrum
Lending Division from October 2005 until 2007,
the underwriting practices at Countrywide were
“pretty much ‘anything goes’ and “there’s nothing we wouldn’t do.” Underwriter worked as
part of a team of eight or nine underwriters at a
branch office in Chandler, Arizona. Accordingly,
quality restrictions did not slow down this team.
And while a quality review group was supposed
to evaluate the loans, originators worked on a
bonus system where negative quality ratings

App. 16
meant a deduction of bonus points – and negative ratings were “few and far between.”
45.

Owner has been informed that it was “evident” that one of Countrywide’s goals was to be
able to fund any’ loan. Accordingly, senior management didn’t want to have to turn down any
loan application because it wanted to grow market share and didn’t want borrowers, mortgage brokers, or other mortgage companies that
sought warehouse lines of credit from Countrywide to take their business to competitors. As
a result, accordingly, loans that did not meet
Countrywide’s underwriting standards were approved and funded routinely. CW 10 added that
senior management’s philosophy was that if the
risks associated with a particular loan were
simply “priced right,” Countrywide should be
able to fund any loan.

46.

A Illinois Attorney General Complaint also
alleges that Countrywide employees did not
properly ascertain whether a potential borrower
could afford the offered loan, and many of Countrywide’s stated income loans were based on
inflated estimates of borrowers’ income. For example, according to the Illinois Attorney General Complaint: (i) a Countrywide employee
estimated that approximately 90% of all reduced documentation loans sold out of a Chicago
office had inflated incomes; and (ii) one of Countrywide’s mortgage brokers, One Source Mortgage Inc., routinely doubled the amount of the
potential borrower’s income on stated income
mortgage applications.

App. 17
47.

According to an FDIC Report, Countrywide
had about 5,000 internal referrals of potentially
fraudulent activity in its mortgage business in
2005, 10,000 in 2006, and 20,000 in 2007, according to Francisco San Pedro, the former Senior Vice President of Special Investigations at
the Company. But it filed only 855 Suspicious
Activity Reports with the Financial Crimes Enforcement Network in 2005, 2,895 in 2006, and
2,261 in 2007.

48.

Countrywide also failed to disclose that it
used the appraisal process to inflate the purported value of properties because doing so
would result in lower loan to value (“LTV”) ratios. A lower LTV ratio would allow a loan to be
approved when it otherwise would not be, and
would appear less risky to investors. But loans
based on inflated appraisals are more likely to
default and less likely to produce sufficient assets to repay the second lien holder in foreclosure. Part of Countrywide’s plan to increase
market share and to make as many loans as possible also involved the practice of pressuring
and intimidating appraisers – many of whom
were affiliated with Countrywide – thus had a
conflict of interest into using appraisal techniques that met Countrywide’s business objectives even if the use of such appraisal techniques
was improper and in violation of industry standards and routinely circumvented. Countrywide
knew the appraisals were inaccurate because
Countrywide itself required the use of specific
appraisers, pressured appraisers to falsely inflate the appraised values, and blacklisted appraisers who did not comply.

App. 18
49.

Because of the importance of appraisals in
the home lending market, state and federal statutes and regulations require that appraisals be
accurate and independent. The Uniform Standards of Professional Appraisal Practice (“USPAP”), incorporated into federal law, 12 C.F.R.
§ 34.44, requires appraisers to conduct their appraisals independently: “An appraiser must perform assignments with impartiality, objectivity,
and independence, and without accommodation
of personal interests. In appraisal practice, an
appraiser must not perform as an advocate for
any party or issue.” USPAP Ethics Rule (Conduct).

50.

A civil complaint filed by a real estate appraisal company, Capitol West Appraisals, LLC
(“Capitol West”), provides compelling evidence
that Countrywide encouraged and engaged in a
practice of pressuring real estate appraisers to
artificially increase appraisal values for properties underlying mortgages Countrywide originated and/or underwrote. According to that
complaint, Countrywide loan officers sought to
pressure Capitol West to increase appraisal values for three separate loan transactions. When
Capitol West refused to vary the appraisal values from what it independently determined was
appropriate, Countrywide placed Capitol West
on its “Field Review List,” or an Exclusionary
List. The Field Review List or Exclusionary List
was a Countrywide database containing the
names of appraisers whose reports Countrywide
would not accept unless the mortgage broker
also submitted a report from a second appraiser.
According to the complaint, the practical effect

App. 19
of being placed on the Field Review List was to
be “blacklisted” – no mortgage broker would hire
an appraiser appearing on the Field Review List
to review a property sale in which Countrywide
would he the lender because the broker simply
would not pay to have two appraisals done. Instead, the broker would simply retain another
appraiser who was not on the Field Review List.
While an honest lender might have a legitimate
purpose to maintain a list of appraisers it was
unwilling to use, Capitol West claimed that
Countrywide was falsely and fraudulently using
their Exclusionary List to punish and retaliate
against appraisers who even attempted to maintain the designed integrity and independence of
the appraisal process.
51.

According to Capitol West, Countrywide
created certain procedures to further enforce its
blacklisting of uncooperative appraisers. For example, if a mortgage broker were to hire an appraiser that happened to be on the Field Review
List, Countrywide used its wholly owned subsidiary, LandSafe, Inc. (“LandSafe”), to perform an
appraisal and cut off the offending appraiser.
LandSafe performed a “field review” of the appraisal performed by the blacklisted appraiser,
which was specifically intended to “shoot holes”
in the appraisal. LandSafe’s appraisal would
then he used to complete the loan.

52.

Allegations in the whistleblower complaint
filed in the Southern District of Texas, Zachary
v. Countrywide Fin. Corp., et al., No. 4:08CV01464, by Mark Zachary (“Zachary”) (a former
Regional Vice President of Countrywide’s joint

App. 20
venture with KB Homes), against Countrywide,
confirm that the Company blatantly ignored its
underwriting policies and procedures by knowingly relying on overstated, low-quality appraisals that failed to conform to industry standards.
In September 2006, Zachary informed Countrywide about the questionable use of only one appraiser to perform all of the appraisals on KB
Home properties being purchased with Countrywide’s loans. According to Zachary, Countrywide
executives knew that appraisers were being
strongly encouraged to inflate appraisal values
by as much as 6% to allow homeowners to “roll
up” all closing costs. According to Zachary, this
practice resulted in borrowers being “duped” as
to the values of their homes. ‘This also made
loans more risky because when values were
falsely increased, LTV ratios calculated with
these phony numbers were necessarily incorrect. Zachary also stated that Countrywide loan
officers were permitted to discard appraisals
that did not support loans in favor of appraisals
by replacement appraisers that supported a
qualifying LTV ratio.
53.

Zachary also advised Countrywide executives that this appraisal practice misled investors who later purchased these loans through
securitizations because these investors were
not made aware that the actual home values
were less than the inflated appraised values.
According to Zachary, the inflated appraised values put buyers “upside down” on their homes immediately after purchasing them; that is, the
borrowers immediately owed more than their
homes were worth. Thus, the borrowers were set

App. 21
up to be more susceptible to defaulting on their
loans. This practice also put Countrywide at risk
because they deliberately were unaware of the
true value of the assets on which the Company
was loaning money. Zachary brought his concerns first to the executives of the Countrywide/KB Homes joint venture, but when he was
“brushed aside” by them, he turned to Countrywide executives in Houston, the Company’s Employee Relations Department and finally the
Company’s Senior Risk Management Executives. In January 2007, an audit was conducted
and brought to the attention of these Countrywide executives which corroborated his concerns.
54.

Countrywide and its appraisal subsidiary,
LandSafe, have also been sued by Fannie Mae
and Freddie Mac investors for damages arising
from inflated appraisals for property underlying
mortgage packages sold to both Fannie Mae and
Freddie Mac.

55.

Countrywide’s strategy shift from traditional lending to a “pump and dump” operation
with all risk assumed by others, was further
fueled by a compensation structure, devised and
approved by management, that was closely
linked to loan volume and not tied to the quality
of loans originated. This structure facilitated
a widespread and pervasive abandonment of
sound risk management at the Company, an increase in the volume of exception loans that
were processed, and an extraordinary amount of
falsified data entered into Countrywide’s computer systems. According to a former sales

App. 22
representative quoted on August 26, 2007, in a
New York Times expose, “the whole commission
structure in both prime and subprime was designed to reward salespeople for pushing whatever programs Countrywide made the most
money on in the secondary market.”
56.

Terry Gamer, a former Countrywide loan officer in Twin Falls, Idaho, commented to The
Wall Street Journal that pressure from superiors to boost loan volumes created “unbelievable,
stress levels at Countrywide.”

57.

Simply put, Countrywide’s whole business
was designed with the goal of originating loans
and selling them to the secondary markets as
quickly as possible, regardless of the quality of
the loans, the suitability of the products for the
borrower, or the number and magnitude of exceptions to Countrywide’s supposedly sound underwriting standards. Having shifted the risk to
the holders of the MBS securities and unsuspecting homeowners, any the Company (or its
employees) may have had to ensure that borrowers could repay the loans was outweighed by
greed: the incentive to originate, bundle and sell
as many loans as possible; accordingly, almost
anyone could get a loan from Countrywide, even
if he or she had very little ability to pay it back.
In fact this paradigm shift from traditional lending to giving anyone who breathes a mortgage,
was so pervasive that columnist Dave Barry jokingly stated that he was afraid of letting the dog
outside for fear the dog would come back with a
mortgage.

App. 23
58.

On December 13, 2007, a New York Times
article reported that “the Illinois attorney general is investigating the home loan unit of
Countrywide Financial as part of the state’s
expanding inquiry into dubious lending practices that have trapped borrowers in high-cost
mortgages they can no longer afford.” The New
York Times further noted that “Lisa Madigan,
the Illinois attorney general, has subpoenaed
documents from Countrywide relating to its
loan origination practices.”

AS COUNTRYWIDE’S SUCCESSOR BANK,
BANK OF AMERICA, BY ITS AFFILIATE, BAC
IS LIABLE FOR COUNTRYWIDE’S ACTIONS
59.

On January 11, 2008, Bank of America announced that it would purchase Countrywide for
$4.1 billion in an all-stock transaction. On July
1, 2008, Bank of America completed its merger
with Countrywide.

60.

On October 6, 2008, Bank of America filed a
Form 8-K with the Securities Exchange Commission (“SEC”) announcing, among other things,
that Countrywide would transfer all, or substantially all, of its assets to unnamed subsidiaries of Bank of America. Bank of America
offered virtually no details about the contemplated asset sale. On information and belief, the
intended effect of this transaction was to integrate those assets further into the operations of
Bank of America while leaving the liabilities
with Countrywide.

App. 24
61.

Countrywide transferred substantially all
of its assets to Bank of America on November 7,
2008. On or about that time, Countrywide
ceased filing its own financial statements, and
its assets and liabilities have since been included in Bank of America’s financial statements. As Bank of America reported to the SEC,
this transfer of assets occurred “in connection
with the integration of Countrywide Financial
Corporation with [Bank of America’s] other
businesses and operations.” Virtually no details
of this transaction were disclosed. On information and belief, largely as a result of this
transfer of assets, Countrywide and a merger
subsidiary (created to effectuate the merger) are
now moribund organizations, with few, if any, assets or operations. As admitted in the Notice of
Interested Parties Pursuant to L.R. 7.1-1 filed
on May 20, 2011, in Children’s Hospital & Medical Center Found. of Omaha v. Countrywide
Fin. Corp., 11-CV-02056-MRP-MAN (C.D.Cal.),
Bank of America is the “ultimate parent” to
Countrywide.

62.

On April 27, 2009, Bank of America announced in a press release, that “[t]he Countrywide brand has been retired” and that it had
rebranded Countrywide Home Loans as “Bank
of America Home Loans.” The press release announced that Bank of America Home Loans
“represents the combined operations of Bank of
America’s mortgage and home equity business
and Countrywide Home Loans.”

63.

The April 27, 2009, press release made clear
that Bank of America planned to complete its

App. 25
integration of Countrywide into Bank of America in 2009. While the integration was being
completed, Countrywide customers had access
to Bank of America’s 6,100 banking centers. The
press release explained that Bank of America
was in the process of rebranding former Countrywide “locations, account statements, marketing materials and advertising” as Bank of
America Home Loans, and stated that “the full
systems conversion” to Bank of America Home
Loans would occur later in 2009.
64.

As of September 21, 2009, former Countrywide bank deposit accounts were reportedly
converted to Bank of America accounts. On
November 9, 2009, online account services for
Countrywide mortgages were reportedly transferred to Bank of America’s Online Banking
website. On information and belief, Bank of
America’s rebranded consumer real estate business now operates out of over 1,000 former
Countrywide offices nationwide. Many former
Countrywide locations, employees, assets, and
business operations now continue under the
Bank of America Home Loans brand, Countrywide has disclosed that its employees’ 401(k)
plans were rolled into Bank of America’s 401(k)
plan, effective April 6, 2009. Countrywide’s former website now redirects to the Bank of America website. Bank of America Home Loans is
thus a direct continuation of Countrywide’s operations and is operating Countrywide’s mortgage origination business as its own.

65.

Bank of America’s Form 10-Q filed with the
SEC for the period ending September 3, 2009

App. 26
stated that, “[title acquisition of Countrywide
significantly expanded the Corporation’s mortgage originating and servicing capabilities,
making it a leading mortgage originator and
servicer.” The Form 10-Q acknowledged pending
litigation against Countrywide and stated that
“Countrywide’s results of operations were included in the Corporation’s results beginning
July 1, 2008.”
66.

The Bank of America website announced
that the companies merged. Bank of America
noted on its website that it was “combining the
valuable resources and extensive product lines
of both companies.” Under the “Merger History”
tab of Bank of America’s website, Countrywide
is included among the list of companies Bank of
America has acquired. Under the “Time Line”
tab, the website states that Bank of America
“became the largest consumer mortgage lender
in the country” following its acquisition of Countrywide in 2008. Lastly, under the “Our Heritage” tab, the website states that the acquisition
of Countrywide “resulted in the launch of Bank
of America Home Loans in 2009, making the
bank the nation’s leading mortgage originator
and servicer.” The Countrywide logo appears on
the page.

67.

In many other public statements, Bank of
America has described its acquisition of Countrywide and its subsidiaries as a merger and
made clear its intent to fully integrate Countrywide and its subsidiaries into Bank of America.

App. 27
68.

For example, in a July, 2008 Bank of America press release, Barbara Desoer (“Desoer”),
identified as the head of the “combined mortgage, home equity and insurance businesses” of
Bank of America and Countrywide, said: “Now
we begin to combine the two companies and prepare to introduce our new name and way of operating.” The press release stated that the bank
“anticipates substantial cost savings from combining the two companies. Cost reductions will
come from a range of sources, including the
elimination of positions announced last week,
and the reduction of overlapping technology,
vendor and marketing expenses. In addition,
Countrywide is expected to benefit by leveraging its broad product set to deepen relationships
with existing Countrywide customers.”

69.

In October, 2008, Desoer commented that
the integration was proceeding on schedule, noting, “The company has named a mix of Bank of
America and former Countrywide executives to
leadership roles and will be tapping more managers through the end of the year.”

70.

Desoer was interviewed for the May 2009
issue of Housing Wire magazine, which reported
that: “While the move to shutter the Countrywide name is essentially complete, the operational effort to integrate across two completely
distinct lending and service systems is just getting under way. One of the assets Bank of America acquired with Countrywide, was a vast
technology platform for originating and servicing loans and Desoer says that the bank will he
migrating some aspects of Bank of America’s

App. 28
mortgage operations over to Countrywide’s platforms.”
71.

Desoer was also quoted as saying: “We’re
done with defining the target and we’re in the
middle of doing the development work to prepare us to be able to do the conversion of the part
of the portfolio going to the legacy Countrywide
platforms.” Desoer explained that the conversion would happen in the “late fall” of 2009 and
that the integration of the Countrywide and
Bank of America platforms was a critical goal.

72.

After the integration had further progressed, Desoer stated in the October 2009 issue
of Mortgage Banking that “the first year is a
good story in terms of the two companies [coming] together and meeting all the major goals
and milestones that we had set for ourselves for
how we would work to integrate the companies.”
For Desoer, it was “the highlight of the year when
we retired the Countrywide brand and launched
the Bank of America Home Loans brand.” In the
same issue, Mary Kanaga, a Countrywide transition executive who helped oversee integration,
likened the process of integration to the completion of a mosaic: “Everything [i.e., each business
element] counts. Everything has to get there,
whether it’s the biggest project or the smallest
project. It’s very much putting a puzzle together.
If there is a missing piece, we have a broken
chain and we can’t complete the mosaic.”

73.

Likewise, in its 2008 Annual Report, Bank
of America confirmed that “loin July 1, 2008, we
acquired Countrywide,” and stated that the

App. 29
merger “significantly improved our mortgage
originating and servicing capabilities making us
a leading mortgage originator and servicer.” In
the Q&A section of the same report, the question
was posed: “How do the recent acquisitions of
Countrywide and Merrill Lynch fit into your
strategy? Bank of America responded that by
acquiring Countrywide it became the “No. 1 provider of both mortgage originations and servicing” and “as a combined company,” it would be
recognized as a “responsible lender who is committed to helping our customers become successful homeowners.” Similarly, in a July 1, 2008
Countrywide press release, Angelo Mozilo, the
former president of Countrywide, stated that
“the combination of Countrywide and Bank of
America will create one or the most powerful
mortgage franchises in the world.”
74.

In purchasing Countrywide and its subsidiaries for only 27% of its book value at the time,
Bank of America was fully aware of the pending
claims and potential claims against Countrywide and factored them into the transaction.
Bank of America has since confirmed in numerous statements and actions that it has expressly
or impliedly assumed Countrywide’s contractual and tort liabilities, including claims and
potential claims against Countrywide and its
former officers and directors.

75.

Bank of America’s purchase of Countrywide
for just 27% of its book value further suggests
that the acquisition was structured to strip the
corporate shells left behind of their respective
recoverable assets.

App. 30
76.

For example, in an interview published on
February 22, 2008, in the legal publication, Corporate Counsel, a Bank of America spokesperson
admitted that Bank of America had assumed
Countrywide’s liabilities: “Handling all this litigation won’t be cheap even for Bank of America,
the soon-to-be largest mortgage lender in the
country. Nevertheless, the banking giant says
that Countrywide’s legal expenses were not
overlooked during negotiations. “We bought the
company and all of its assets and liabilities,
“spokesman Scott Silvestri says, “We are aware
of the claims and potential claims against the
company and have factored these into the purchase.”

77.

Further, on October 6, 2008 during an earnings call, Joe Price, Bank of America’s CFO,
stated that “As we transfer those operations (i.e.,
Countrywide and its subsidiaries] our company
intends to assume the outstanding Countrywide
debt totaling approximately $21 billion.” Asked
about the “formal guaranteeing” of Countrywide’s debt, Kenneth D. Lewis (“Lewis”), Bank
of America’s former Chairman and CEO, responded that: “The normal process we followed
is what are the operational movements we’ll
make to combine the operations. When we do
that we’ve said the debt would fall in line and
quite frankly that’s kind of what we’ve said the
whole time. [T]hat’s been very consistent with
deals we’ve done in the past from this standpoint.”

78.

Similarly, Lewis was quoted in a January
23, 2009 New York Times article reporting on

App. 31
the acquisition of Countrywide and its subsidiaries, in which he acknowledged that Bank of
America knew of the legal liabilities of Countrywide and its subsidiaries and impliedly accepted
them as part of the cost of the acquisition: “We
did extensive due diligence. We had 60 people
inside the company for almost a month. It was
the most extensive due diligence we have ever
done. So we feel comfortable with the valuation.
We looked at every aspect of the deal from their
assets to potential lawsuits and we think we
have a price that is a good price.”
79.

Bank of America made additional statements
showing that it has assumed the liabilities of
Countrywide. In a press release announcing
the merger, Lewis stated that he was aware of
the “issues within the housing and mortgage industries” and said that “the transaction [with
Countrywide] reflects those challenges.” Despite
these challenges, Lewis stated in October 2009
that “the Merrill Lynch and Countrywide integrations are on track and returning value already.”

80.

Likewise, in Bank of America’s Form I 0-K
filed with the SEC for 2009, Bank of America
acknowledged that “[W]e face increased litigation risk and regulatory scrutiny as a result of
the Merrill Lynch and Countrywide acquisitions.”

81.

Brian Moynihan (“Moynihan”), Bank of
America’s CEO and President, testified before
the FDIC on January 13, 2010, that “our primary window into the mortgage crisis came

App. 32
through the acquisition of Countrywide. The
Countrywide acquisition has positioned the bank
in the mortgage business on a scale it had not
previously achieved. There have been losses and
lawsuits from the legacy of Countrywide operations, but we are looking forward.”
82.

Addressing investor demands for refunds
on faulty loans sold by Countrywide, Moynihan
stated “There’s a lot of people out there with a
lot of thoughts about how we should solve this,
but at the end of the day, we’ll pay for the things
that Countrywide did.” And, in a New York
Times article published in December 2010,
Moynihan, speaking about Countrywide, stated
that “[o]ur company bought it and we’ll stand
up: we’ll clean it up.”

83.

Similarly, Jerry Dubrowski, a spokesman
for Bank of America, was quoted in an article
published by Bloomberg in December, 2010 that
the bank will act responsibly” and repurchase
loans in cases where there were valid defects
with the loans. Through the third quarter of
2010, Bank of America has faced $26.7 billion in
repurchase requests and has resolved, declined
or rescinded $18 billion of those claims. It has
established a reserve fund against the remaining $8.7 billion in repurchase requests, which at
the end of the third quarter stood at $4.4 billion.

84.

During an earnings call for the second quarter of 2010, Charles Noski (“Noski”), Bank of
America’s Chief Financial Officer, stated that
“we increased our reps and warranties expense
by $722 million to $1.2 billion as a result of our

App. 33
continued evaluation of exposure to repurchases
including our exposure to repurchase demands
from certain monoline insurers.” And during the
earnings call for the third quarter of 2010, Noski
stated that “[t]hrough September, we’ve received $4.8 billion of reps and warranties claims
related to the monoline-insured deals, of which
$4.2 billion remains outstanding, and approximately $550 million were repurchased.”
85.

Consistent with its assumption of Countrywide’s liabilities, Bank of America has reached
various settlement agreements in which it has
directly taken responsibility for Countrywide’s
liabilities and paid to restructure certain of
Countrywide’s home loans. On October 6, 2008,
Bank of America settled lawsuits brought against
Countrywide by state Attorneys General by
agreeing to loan modifications for 390,000 borrowers, an agreement valued up to $8.68 billion
(including up to $3.5 billion to California borrowers). Bank of America also agreed to pay
$150 million to help Countrywide customers
who were already in or were at serious risk of
foreclosure, and an additional $70 million to
help Countrywide customers who had already
lost their homes to make the transition to other
living arrangements. The loans were made before Bank of America acquired Countrywide. In
2008, Bank of America restructured 300,000
home loans of which 87% had been originated or
serviced by Countrywide. In announcing that its
loan modification program, known as the National Homeowners Retention Program (“NHRP”),
will now have a “principal forgiveness” component, Bank of America noted that it “developed

App. 34
and launched the NHRP to provide assistance to
Countrywide borrowers.”
86.

On January 3, 2011, Bank of America paid
$2.8 billion to Freddie Mac and Fannie Mac to
settle claims of misrepresentations on billions of
dollars in loans that went sour after Fannie Mae
and Freddie Mac bought them from Countrywide. In exchange for the payments, Freddie
Mac and Fannie Mae agreed to drop their demands that Bank of America buy back the Countrywide mortgages. The payment of $1.28 billion
to Freddie Mac settled 787,000 loan claims (current and future) sold by Countrywide through
2008. The payment of $1.34 billion (after applying credits to an agreed upon settlement amount
of $1.52 billion) to Fannie Mae settled repurchase claims on 12,045 Countrywide loans (with
approximately $2.7 billion of unpaid principal
balance) and other specific claims on 5,760 Countrywide loans (nearly $1.3 billion of unpaid principal balance).

87.

On June 29, 2011, Bank of America announced that it had reached an $8.5 billion
agreement to resolve nearly all of the legacy
Countrywide-issued firstlien RMBS repurchase
exposure. The settlement covers about $424 billion of the mortgage bonds created by Countrywide between 2004 and 2008. Bank of America
stated that with this agreement and other mortgage-related actions in the second quarter of
2011, the company believed it had recorded
reserves in its financial statements for a substantial portion of its exposure to representation and warranties claims on loans issued by

App. 35
Countrywide. The amount of the provision totaled $14 billion. The settlement was the third
in six months for Bank of America following the
Fannie Mae and Freddie Mac settlement, and a
similar deal with insurer Assured Guaranty.
“This is another important step we are taking in
the interest of our shareholders to minimize the
impact of future economic uncertainty and put
legacy issues behind us,” said Bank of America
CEO Moynihan. “We will continue to act aggressively, and in the best interest of our shareholders, to clean up the mortgage issues largely
stemming from our purchase of Countrywide.”
88.

Bank of America has also taken responsibility for liabilities arising out of litigation against
Countrywide’s former officers and directors. In
October 2010, The New York Times reported
that Bank of America is “on the hook” for $20
million of the disgorgement that Countrywide’s
Mozilo agreed to pay in his settlement agreement with the SEC. The agreement and plan of
merger between Bank of America and Countrywide provided that all indemnification provisions
“shall survive the merger and shall continue in
full force and effect for a period of six years.” According to the article, “Because Countrywide
would have had to pay’ Mr. Mozilo’s disgorgement, Bank of America took on the same obligation even though it had nothing to do with the
company’s operations at the time.”

89.

Bank of America has generated significant
earnings from the absorption of Countrywide’s
mortgage business.

App. 36
90.

Bank of America’s 2009 annual report
stated that “[r]evenue, net of interest expense on
a fully taxable-equivalent (FTE) basis, rose to
$120.9 billion, representing a 63% increase from
$74.0 billion in 2008, reflecting in part the addition of Merrill Lynch and the full-year impact of
Countrywide.” Bank of America also reported
that “[m]ortgage banking income increased $4.7
billion driven by higher production and servicing income primarily due to increased volume as
a result of the full-year impact of Countrywide.”
Insurance income also increased $927 million
“due to the full-year impact of Countrywide’s
property and casualty businesses.”

91.

Based on the above, Bank of America has
“de facto” merged with Countrywide, consolidating and merging with the Countrywide and acquiring substantially all of the assets of all the
Countrywide entities. Indeed, based on the
same facts, the Supreme Court of the State of
New York in MBIA Ins. Corp. v. Countrywide
Home Loans, Index No. 602825/2008, held that
MBIA sufficiently alleged a de Acta merger “in
which Bank of America intended to absorb and
continue the operation of Countrywide.” Order
on Motion to Dismiss at 15 (Apr.29, 2010).

92.

Bank of America is thus Countrywide’s successor in liability, and is thus liable for any and
all damages resulting to Owners from the wrongful actions of Countrywide.

93.

Moreover, BAC is liable for any and all damages resulting from the wrongful actions of
Countrywide as alleged herein, because it is the

App. 37
successor in-interest to Countrywide Loan Servicing and is vicariously liable for the conduct of
Countrywide as a result of a de facto merger of
the two entities.
94.

The Bank of America acquisition was a de
facto merger because Bank of America intended
to take over, and effectively took over, Countrywide and its subsidiaries in their entirety and,
thus, should carry the liabilities of Countrywide
as concomitant to the benefits it derived from
the purchase.

95.

The acquisition resulted in continuity of
ownership – a hallmark of a de facto merger –
because the shareholders of Countrywide became
shareholders of Bank of America as a result of
Bank of America’s acquisition of Countrywide
on July 1, 2008 through an all-stock transaction
involving a wholly-owned Bank of America subsidiary that was created for the sole purpose
of facilitating the acquisition of Countrywide.
Bank of America has described the transaction
as a merger and has actively incorporated Countrywide’s mortgage business into Bank of America.

96.

Bank of America assumed the liabilities
ordinarily necessary for the uninterrupted continuation of the business of Countrywide – another hallmark of a de facto merger. Among
other things, the Countrywide brand has been
retired and the old Countrywide website redirects customers to the mortgage and home loan
sections of Bank of America’s website. On April
27, 2009, Bank of America announced that “[t]he

App. 38
Countrywide brand has been retired.” Instead,
Bank of America operated its home loan and
mortgage business through a new division
named Bank of America Home Loans, which
“represents the combined operations of Bank of
America’s mortgage and home equity business
and Countrywide Home Loans.” The integration
of Countrywide into Bank of America is complete.
97.

The ordinary business of Countrywide
ceased and the Company dissolved soon after
the acquisition – another hallmark of a de facto
merger. On November 7, 2008, Bank of America
acquired substantially all of the assets of Countrywide. And, at that time, Countrywide ceased
submitting filings to the SEC; Countrywide’s assets and liabilities are now included in Bank of
America’s filings.

98.

Bank of America has also taken responsibility for the premerger liabilities of Countrywide,
including restructuring hundreds of thousands
of loans created and serviced by Countrywide. A
spokesperson for Bank of America admitted:
“We bought the company and all of its assets
and liabilities.”

99.

Because Bank of America has merged with
Countrywide and acquired substantially all of
the assets of Countrywide, BAC, formerly
known as Countrywide Servicing, and is vicariously liable for the wrongful conduct, as alleged
herein, of Countrywide.

App. 39
OWNER COUNTRYWIDE HOME LOAN
100.

Plaintiff, Eric Ferrier contacted Countrywide Home Loans to finance the purchase of a
Condominium conversion unit 2 bedrooms and
1 bathroom located 530 NE 15th, court at unit 4
Fort Lauderdale, FL 33305 in December 2006.

101.

Plaintiff Eric FERRIER spoke with CHL
employee who offered a specific loan product to
Owners contingent upon Owners credit rating
and appraisal value of the Property. Owners
filed the loan application with Countrywide
Home Loan.

102.

CHL employee, conducted a telephone interview with Plaintiff, Eric FERRIER for a loan
application where Eric FERRIER provided true
and accurate information regarding his financial status at that time was self employed supported by documentation. Upon information and
belief, Countrywide Home Loans through its
employee, and others who prepared and reviewed the Loan Documents, intentionally inflated Owners income so as to quality Owners
for the Loan. Based upon this, a good faith estimate was prepared by underwriter of Countrywide Servicing and loan application documents
which included the false statement of Eric FERRIER’s income were prepared by the underwriter of Countrywide Home Loans. Discovery
will show whether the SETTLEMTENT AGENT
also participated in the preparation of false documents in connection with the Loan.

103.

Countrywide Home Loans, through its employees and agents, altered Owner’s income so

App. 40
this Loan would fit the necessary criteria to obtain the Loan and to sell the Loan in the secondary market.
104.

The Loan was represented to be a fully-documented “verified income” adjustable rate note
with mortgage at 10.750% variable interest for
30 years. According to the Form 1003, Uniform
Residential Loan Application, Owners’ Loan
was an “Income Verification Loan” to be fully
documented. As part of the full loan documentation, the Loan Documents included an IRS 4506T request for a transcript of tax return to verify
Owner’s income and to underwrite the loan.

105.

In 2006, the loan application documents, as
prepared by Countrywide Home Loans, were
signed by Owners and returned to Countrywide
Home Loans. Owners did not notice the misstatement of Owners income on the loan application. As Owners understood this to be a fullydocumented loan, Owners had no knowledge
that Countrywide Home Loans had falsified
Owner’s income in order for the loan to be approved.

106.

The Appraiser had knowledge that the sale
asking price on the Property had been reduced
by Owner to $220,000 in 2006.

107.

The subject property has 2 bedrooms, 1
bathroom and a 1 car space, but the Appraiser
used “comparable” sales which had 2 vehicle
spaces and private backyard and entrance which
were not comparable, thereby driving up the Property’s perceived value. Also the Appraiser compared the unit to other properly managed and

App. 41
maintained condominium complex. Additionally
“appraiser” used properties outside of the area
to be used as comparable sales which again,
were not comparable thereby validating a value
which Countrywide needed to create a Loan to
Value ratio which would meet the criteria of the
CWALT, Inc. MBS Trust which Owners’ loan
was sold to.
108.

The Countrywide entities all acted together
with regard to the Loan to the Owners, as the
Loan was processed through Countrywide Home
Loans, the Note was in the name of Countrywide, the alleged Lender in the name of Countrywide Bank FSB and the Mortgage was in the
name of Countrywide Home Loans now known
as BAC.

109.

The Mortgage was recorded with the Florida
Broward County Recorder of Deeds on 12/12/2006
as Document Number #CFM 1066663409. The
Mortgage identified MFRS as nominee and mortgagee for alleged “lender” Countrywide Bank.

110.

109. On April 27, 2009, Countrywide Servicing became BAC.
THE ALLEGED ASSIGNMENT

111.

BNY BAC’s Agent is a trustee for investors
that own The Structured Asset Securities Corporation Mortgage Pass-Through Certificate.
This certificate is an investment instrument created by pooling thousands of notes and mortgages together. In order to create this certificate,
the note is sold from the originator to a sponsor;

App. 42
it is then sold to a depositor who creates the
note-pooled certificate. The certificate is then
sold to a trustee that governs the pool. The note
passes through 3 or 4 owners before the trustee
of the pool gains possession.
112.

In a rush to create these note-securitized
MBA’s, “Mortgage Backed Assets”, laws requiring signatures, notaries, recording and time in
order to prove legal transfers have been ignored.
in order to GIVE THE ILLUSION OF LEGALLITY, foreclosure mills have to resort to fraudulent lost note claims, fraudulent affidavits, inhouse backdated assignments, and forgery.

113.

On August 26th, 2011, MERS, as nominee
for alleged “Lender” Countrywide Batik, “sold,
assigned and transferred” to BNY aka Countrywide Servicing “all rights, title and interest in,
and to a certain mortgage executed by Owners
together with said note therein described . . .
However, the note when signed in December
2006, never mentioned MFRS, therefore MERS
cannot simply decide to now include it with the
mortgage. On 9/20/2011, the Assignment document (Exhibit A) was recorded with Broward
County, Florida Recorder of Deeds as Book /
Page 48191 / 1547

114.

At the top of the alleged Assignment it
states: “Requested by BANK OF AMERICA Prepared by Sandy Alexander and mailed to: Core
Logic 450 E Boundary St. Chapin SC 29036.

115.

Said assignment Document was executed
by Thomarat Lertkulpryad, alleged Vice President of MERS, and attested to by Jennifer Baker,

App. 43
alleged Assistant Vice President of MERS. The
document was notarized by Lindsay Thunel in
the State of Arizona the same day which suffice
to request an explanation to say the least.
116.

Countrywide ceased to operate in April 27,
2009 and therefore could not “sold, assigned and
transferred” to BNY the mortgage in 2011. The
assignment was not recorded but for 29 months
after the dissolution of Countrywide and made
to BNY servicing BAC, two distinct identity.

117.

Owner believes and thereon alleges that the
Assignment to BNY presented by BAC fka CHLS,
of Owners Mortgage was not made by the real
party in interest, but rather by employees of BAC.

118.

Owner believes and thereon alleges that
Thomarat Lertkulpryad was neither a Vice
President for MERS nor was Jennifer Baker an
Assistant Vice President for MERS, but instead
both were employed by BAC as “robo-signers”
having no personal knowledge of Owners loan,
nor power of attorney, to execute said document.

119.

In the Superior Court of New Jersey, Bank
of New York v. Victor and Enoabasi Ukpe, Case
#10-43081, a deposition by MERS Secretary
Hultman revealed that MERS has no employees, and that the signers on the assignments are
certifying officers whose only link to MERS is a
corporate resolution signed by MERS Secretary
Hultman. Accordingly, the certifying officers are
employees of MERS Member Financial Institutions and attorneys at firms doing foreclosures
for MERS banks, as well as non-member employees. Upon information and belief, Thomarat

App. 44
Lertkulpryad’s appointment as an officer of
MERS was not authorized by’ the MERS’ bylaws
which state that only the board of directors can
appoint a certifying officer and that MERS Secretary Hultman did not have the authority to
appoint the officers certifying to the Assignment
of Owners Mortgage.
STATEMENT OF FACTS REGARDING
OWNER AND OWNERS’ LOAN AND
HOME ASSOCIATION DUES
120.

In December 2006, Owners entered into an
agreement to purchase the Property in a 8 units
Condominium conversion recently build and appraised by LAND SAFE APPRAISAL INC at
237,705. Within less than a few months similar
units in the complex where sold for less than
$220,000. (Exhibit B). The appraisal was requested to BROKER Prudential, BANK Lender
and closing agent who disclosed the property to
be sold with two parking spaces, a private backyard and warranty on the roof.

121.

Building sufficient insurance coverage,
loans term and maintenance of the common elements terms, construction defects, late fees and
interest on association dues, terms of the Condominium rider were fraudulently disclosed,.

122.

Within a few months the owner requested
by and through legal counsel the home owner’s
association insurance and to have what appears
to be small leaks coming from walls to be repaired. Allied Insurance Services 8400 n University Dr, #303 Tamarac FL 33321 the NOVA

App. 45
CASUALITY Insurance broker remained evasive
to the insurance terms and requests having
been ignored. The board/developer of the Association promptly resigned and became unavailable. (Exhibit C)
123.

The Association was still under developer
control, and identical request were made to the
developer who remained identically evasive.
The developer was at the time attempting to collect association fees. All requests for association
records and federal tax filing records have been
ignored to date. (Exhibit D)

124.

The property value was inflated failing
short of proper condition disclosure to undemriter loan officer. Commissions and settlement
fees have been paid to the settlement agent Moraitis, Cofar, Karney & Moraitis located at 915
Middle River Drive, Suite 506, Fort Lauderdale,
Fl. ADEQUATE DISCLOSURE has not been
made at UNDERWRITTING.

125.

When the economic crisis was announced in
2009, Owner Eric FERRIER became unemployed and his contracting activities slow down
to a halt.

126.

Real estate prices began to plummet financially devastating Owner in the form of negative
equity and inability to refinance at lower rate.
The Association applied assessment fees to the
units owners to make up for the deficit left by
the Developer board, Todd Stolfa.

127.

By letter, Owner received notice of acceleration of the Mortgage from Countrywide.

App. 46
128.

Owner authorized DANIEL H. FOX. Esq.
2750 NE 185th St. Suite 302 Aventura Florida
33180 to examine his loan and closing documents and sought a modification of the loan after seeing a BAC ad in the local news paper. The
owner paid the sum of $2,000 to the firm to assist in the process. The same firm filed bankruptcy and the owner application remained
pending while notice of acceleration of the Mortgage were still been send by Bank of America.
(Exhibit E). At any point the owner had a chance
to have the terms of the hustle high interest rate
loan reviewed by a legal counsel as he was entitled by Laws.

129.

Owners called BAC Hope line regarding
modification, but BAC claimed that it “lost” the
paperwork and asked them to refax it again
which he did 2 more times. Upon information
and belief, BAC had no intention of modifying
the Loan as it was at the time profitable for BAC
to collect on government insurance predominantly through the Federal Reserve, Fannie
Mac or Freddie Mac along with TARP funds. As
revealed in the House of Representatives Judiciary Committee hearing on December 21, 2010
(http://judiciary.house.gov/hearings/printers/111th/
111-158_62935.PDF); Detroit attorney, Vanessa
Fluker, also found a high rate of modification paperwork being “misplaced” – up to 10 times in
some cases – for clients she was trying to help
modify their loans. She discovered that any loan
insured by Fannie Mae or Freddie Mac paid the
bank the ENTIRE mortgaged amount whereas
a loan modification did not. The banks were
profit-driven, and as BAC in the instant case,

App. 47
seeks even further recovery from owners in spite
it may have already recovered which explains
the delay in the assignment that was signed in
2011, one month after the merger and dissolution of BAC Home Loans Servicing that was collected money from Fannie Mae or Freddie Mac.
Plaintiff is been requested certified copy of the
notes and an explanation for the missing note
under the belief he was entitled to that document.
130.

In June 2010 the owner was finally notified
that the loan modification was conditionally approved and payment reduced but that there was
no guarantee of reduction of principal in spite of
on time payments. As a matter of fact BAC
claimed that a payment was already been reported late in spite of the QUICKCOLLECT
showing timely payment. The probation payments period had been extended beyond usual
terms provided to other owners request similar
loan modification.

131.

During the same period, the owner learn
from the firm BRAD KELSKEY PA authorized
to represent the owner in the HOA dispute that
he will no longer handle that case and receive
approximately a $460 refund on the $2,500 retainer that the Owner advanced to have the firm
represent him in the disputes over the parking
spaces, access to the property and water damages.

132.

Sub sequentially owner contacted HOA
Management Company to request inspection of

App. 48
documents, insurance policy, and to have the
unit inspect by Mold Experts. (Exhibit F)
133.

Eric Ferrier explained to the HOA Management that his payments had been returned
since the developer passed over control and that
he has been making payment to the Mortgage
escrow account and will continue to do so until
the water damages were repaired.(Exhibit G)

134.

Eric Ferrier filed a insurance claim to the
HOA insurance NOVA CASUALTY who send
an adjuster to complete an inspection along
with the Code Enforcement of the City of Fort
Lauderdale (Exhibit H)

135.

Eric Ferrier was served a foreclosure action
by the HOA that failed to serve due process on
BAC. Eric Ferrier had to retain a new Law Firm
and maintained his allegation of fraud at Mediation

136.

In April 2011 a mediation agreement was
reached between the HOA and the owner to
bring back dues deficiency in exchange of complete repairs and have the MOLD removed from
the unit. (Exhibit I)

137.

HOA conducted inspection in the Owner absence by making a force entry in May 2011 having been informed that the total cost to repair
the unit 4 will exceed the $10,000 agreed; the
association bank account at the BAC was closed
to prevent the Plaintiff to transfer escrow balance; certified mail including three month
payments check was returned demand made
by Mold Contractor to authorize the repairs

App. 49
ignored. The Association proceeds, frauding
upon the Court to enforce on side of mediation
agreement alleging failure short of payment
scheduled. The court ruling was appealed prior
to be counter claim in Florida State Court in the
form of a Denovo Counter Claim by amendment
with leave of the Court. The Plaintiff attempted
to removed it to make the herein Federal Allegations of Discrimination.
138.

Eric Ferrier authorized the Law firm of
Evan Rosen PA to handle the communication
with BAC during that time. The firm was officially released by BAC on June 11th, 2015 from
representation, BAC having purchased the unit
via BNY for the shocking amount of One Dollar
($1) by filing a new foreclosure action in a separate sue failing short of proper serving on Evan
Rosen PA or on ERIC FERRIER. (Exhibit J)

139.

Eric Ferrier made multiples requests under
the Real Estate Settlement and Procedure Act
Section 2605 to have a clear status on the Loan,
dues and fees applied on this account including
his IRS tax liability, past due balance, certified
assigned mortgage note, and other pertinent information related to the loan. (Exhibit K). The
Plaintiff is STILL UNABLE to file a PROPER
FEDERAL TAX RETURN with the information
provided; Plaintiff alleges that TIMELINES
may be waved since FACTS have been affirmatively concealed.

140.

Eric Ferrier had and still has medical expenses as the result of the extended period of

App. 50
exposure to toxic mold found in the unit (Exhibit
N)
141.

Eric Ferrier primary cause of financial hardship appeared to be conspiracy and poor health
conditions that coincide with the extended period of exposure to toxic mold. The HOA simply
acknowledged having taken part to that retaliation in their filing. (Exhibit O)

142.

Eric Ferrier has filed a complaint to the
HUD office to report the unlawful discrimination (Exhibit P)

143.

The Plaintiff, Eric Ferrier, is been victim of
ongoing intimidations and harassment to force
him to drop his Discrimination allegations including pressure by the City of Fort Lauderdale
employees and Bank Attorneys which have been
including cancelling original insurance claim,
alleging Governmental immunity, restrict the
Plaintiff ability to retain a legal counsel acting
in good faith in the PLAINTIFF best interest,
and affirmative concealment of legitimate information requested under RESPA. Last incident
of records occurs in August 2016.

144.

Defendants made it impossible for the
PLAINTIFF to file this Complaint as a COUNTER CLAIM to their respective FORECLOSURE ACTIONS.

App. 51
FIRST CAUSE OF ACTION
DISCRIMINATION (FAIR HOUSING
AMENDMENTS ACT (FHAA) and
Fair Housing Act Title VIII of the
Civil Rights Act of 1968 (FHA))
(All Defendants)
145.

The allegations contained in paragraphs 1
through 144 of the complaint are realleged and
incorporated herein by reference.

146.

The discriminatory because of the Plaintiff
Foreign National Origin conduct of which Plaintiff complains in this action includes:

147.

a.

Defendants have CONSPIRED AGAINST
the Plaintiff, committed fraudulent acts
and treated the Plaintiff unequally in regards to his rights to SALUBRIOUS homeownership.

b.

Defendants have INTENTIONALY INFERRED with the Plaintiff RIGHTS to access and maintain home-ownership

Defendant committed fraudulent acts not
so much for a lucrative profit but to discriminate
against the Plaintiff based on his National
origin treating him unequally in regards to his
right to a homeownership.

WHEREFORE, Plaintiff respectfully requests the following relief:
a.

Award Plaintiff a Judgment for Discrimination.

App. 52
b.

Award such other relief as this Court may
deem just and proper.
(Against BAC)

148.

The allegations contained in paragraphs 1
through 144 of the complaint are realleged and
incorporated herein by reference.

149.

The discriminatory because of the Plaintiff
Foreign National Origin conduct of which Plaintiff complains in this action includes:
a.

Requiring an extended probation terms in
the loan modification beyond averages and
sub sequentially assigning the title to BNY.

b.

Ignoring the service of the HOA Association
foreclosure or/and failing to quash their
process.

c.

Refusing to demand to pay HOA past dues
according to the Condominium rider.

d.

Ignoring Eric Ferrier right to an Attorney
under the Home Ownership and Equity
Protection Act to review the loan, disclosures and modifications terms treating the
Plaintiff unequally in regards to his right to
homeownership.

e.

Issuing a loan with terms that were unlikely to fulfill so to generate fees and commission.

f.

Ignoring and continue to ignore demand
for discovery and to rescind the mortgage

App. 53
treating the Plaintiff unequally in regards
to his right to homeownership.

150.

g.

Ignoring right for mediation and for a
proper service of process on the retained
Legal Counsel in their foreclosure action
to instead presents to the Court pleading,
written motion, or other paper for any improper purpose, such as to harass, cause unnecessary delay, or needlessly increase the
cost of litigation;

h.

Ignoring and continue to ignore right to inspect the certified notes or explanation for
its missing and other qualified request under RESPA treating the Plaintiff unequally
in regards to his right to homeownership.

i.

Lure the Plaintiff in a loan with terms he
will be unlikely fulfilled so to prevent him
to acquire legitimate property in the future.

j.

Enforce a Fraudulent Assignment that had
no standing through their BANK of NEW
YORK servicing Agent.

Defendant committed fraudulent acts not
so much for a lucrative profit but to discriminate
against the Plaintiff based on his National
origin treating him unequally in regards to his
right to a homeownership.

WHEREFORE, Plaintiff respectfully requests the following relief:
c.

Award Plaintiff a Judgment for Discrimination.

App. 54
d.

Award such other relief as this Court may
deem just and proper.
(Against CFCA, Todd Stolfa,
Lisa Kerher Board Officers)

151.

The allegations contained in paragraphs 1
through 144 of the counterclaim are realleged
and incorporated herein by reference.

152.

The discriminatory conduct because of my
NATIONAL ORIGIN of which Plaintiff complains in this action includes:
a.

Towing of my vehicles and restriction to the
parking access enforcing discriminatory by
laws rules;

b.

Denying access to association records and
IRS filing;

c.

Cancelling insurance claim and ignoring
and continue to ignore request for information including insurance Adjuster transcript.

d.

Engaging in discriminatory acts or practices by stalking, following, harassing, tortuously defaming the owner and his title,
physically injuring by the mean of TOXIC
MOLD EXPOSURE purposely grown in the
unit.

e.

Making forced entries to his apartment.

f.

Chasing me away from his property by the
mean of vexating process.

App. 55
g.

Failing to collect dues from the bank lender
BAC according to the condominium rider.

h.

Breaching their fiduciary duty by enforcing
one sided mediation agreement, altering
the terms of the agreement adding uncollected additional fees and interest so to
evict me.

i.

Presenting to the Court pleading, written
motion, or other paper for any improper
purpose, such as to harass, cause unnecessary delay, or needlessly increase the cost of
litigation treating the Plaintiff unequally in
regards to his right to homeownership

j.

Failing to maintain the common elements
in sanitary conditions treating the Plaintiff
unequally in regards to his right to a SALUBRIOUS homeownership.

k.

Restricting his visitors access to the building.

l.

Stalling my efforts to seek the City of Fort
Lauderdale Code Enforcement assistance
by the mean of negligent misrepresentations treating the Plaintiff unequally in
regards to his right to a SALUBRIOUS
homeownership.

m. Retaliation by the mean of vexatious process including filing eviction, delaying
pleadings, ignoring discovery, failing to
serve the Hank of America in their foreclosure action and stalling my right to sue and
counter complaint.

App. 56
n.

153.

CFCA Inc and board Officers have invaded
Eric Ferrier privacy and seclusion and intentionally intrude his private Affairs because of his National Origin. (Exhibit Q)

Defendant committed fraudulent acts not
so much for a lucrative profit but to discriminate
against the Plaintiff based on his National
origin treating him unequally in regards to his
right to a homeownership.

WHEREFORE, Plaintiff respectfully requests the following relief:
a.

Award Plaintiff a Judgment for Discrimination.

b.

Award such other relief as this Court may
deem just and proper

SECOND CAUSE OF ACTION FRAUD
(11 U.S.C. § 548 and 18 U.S.C. § 1344)
(An Defendants)
154.

The allegations contained in paragraphs 1
through 144 of the complaint are realleged and
incorporated herein by reference.

155.

Failing to have the HOA FEES PAID according the Condominium Rider upon notification by Eric Ferrier of the alleged FEES
OWNED by either a direct disbursement of the
ESCROW Account at the Bank of America or an
extension of the Mortgage

App. 57
(Against BAC)
156.

The allegations contained in paragraphs 1
through 144 of the counterclaim are realleged
and incorporated herein by reference.

157.

The fraudulent acts of BAC, Countrywide
successor, include, but are not limited to, the following:
a.

Fraudulently misstating the income of
Owners resulting in Owners qualifying for
the loan from Countrywide that Owners
would otherwise not be qualified for.

b.

Providing Owner with a 30 years variable
interest rate loan in excess of the real property value with rate that never will be less
than 10.750 or more than 17.750% and payment terms Owner will certainly be unlikely to fulfill.

c.

Providing Owner with an inflated appraisal
resulting in the loan to Owners of money
greater than he could afford to repay and
actual tangible negative equity in the property.

d.

Concealing BAC’s lack of standing in its
complaint for foreclosure and in the loan
modification.

e.

The drafting and processing of affidavits
and documents and the subsequent execution of documents by Robo-signers.

f.

Bringing suit on behalf of an entity which is
not the real party in interest which has no
standing to sue.

App. 58
g.

158.

Moving to Default Judgment in a separate
sue, acquiring the property at auction for
the shocking price of One Dollar ($1) without serving complaint or summons to Eric
Ferrier or his authorized Attorney

Owner is informed and believes and
thereon alleges that BAC as successor to Countrywide Home Loans concealed material facts
from them including, but not limited to, the following:
a.

Intentionally concealing the magnitude and
severity of the underlying market conditions from Owners which were ripe for a
downturn in the real estate market when
the subprime mortgages began to fail;

b.

Intentionally falsifying Owner’s income to
ensure that Owners’ Loan would meet the
criteria established by the CWALT MBS
Trust Pooling and Servicing Agreement;
Failing to properly underwrite Owners fully
documented Loan according to established
guidelines thereby falsely approving Owners Loan to the detriment of Owners.

c.

Filing false untimely assignments of the
Mortgage; and

d.

Using “robo-signers” to execute legal documents who had insufficient knowledge of
Owners’ Loan to accurately reflect the true
holder of the Loan Documents, NOR Power
of Attorney to execute said documents, that
the said documents were executed in a untimely fashion.

App. 59
159.

BAC’s fraud must be viewed within the context of the practices and procedures of Countrywide, its predecessors, which confirmed that the
way that Countrywide acted, specifically with
regard to the Plaintiff; was a systematic pattern
of fraudulent actions TARGET to customer
sharing ETHNIC demographics treating them
unequally in respect to their rights for homeownership.

160.

Countrywide Home Loans through its employee, intentionally misled Plaintiff to believe
that Owners qualified for the Loan under residential loan underwriting standards used in the
industry.

161.

Owner signed the Loan Documents not
knowing of the fraudulent statements concerning Owner’s income in the Loan application or
the fraudulent changes from what had earlier
been presented to them.

162.

As stated in People v. Countrywide Financial Corporation, 08 CH 22994 in the Circuit
Court of Cook County, Illinois (“Illinois Attorney
General Complaint”), Countrywide mortgage
originators routinely falsified income and loan
applications leading to an increase in mortgage
defaults. This David J. Stem case is a classic example of how the foreclosure mills have resorted
to fraudulent lost note claims, filing false affidavits, creating in house back dated mortgage
assignments to give the illusion of legal transfers, and wholesale fraud and forgery in order
to “PUSH” foreclosure summary judgments
through the court system.

App. 60
163.

159. Similar to as stated in a Illinois Attorney General Complaint, Section 96, Plaintiff
was not aware that he was receiving a reduced
documentation loan and did not realize that
they were being sold a loan they could riot afford
or qualify, to receive.

164.

Countrywide Home Loans did not advise
Owner of the substantial risk that they were being granted a Loan greater than he could afford
and would not be able to repay.

165.

Owner is informed and believes and thereon
alleges that Countrywide Home Loans intentionally misled Plaintiff to believe that Plaintiff
qualified for the Loan under residential loan underwriting standards used in the industry.
Countrywide Home Loans falsified Owner’s relevant income to get the loan approved. This
was a pattern and practice Countrywide Home
Loans routinely engaged in without regard to
the consumers’ repayment ability sharing similar ethnics demographics

166.

Owner is informed and believes and thereon
alleges that Countrywide Home Loans facilitated
fraudulent misrepresentations and did not implement underwriting standards oversight thus
causing a false loan approval to be prepared.

167.

Plaintiff is informed and believes and thereon
alleges that Countrywide Home Loans regularly
approved loans to unqualified borrowers, and
implemented practices in this regard ranging
from questionable to criminal. Further, on
information and belief, Owner alleges that
Countrywide Home Loans salespeople worked

App. 61
on commission, meaning the more loans they
sold, the more bonus money they received.
168.

Plaintiff also alleges on information and belief that Countrywide Home Loans salespeople
received a greater commission, or bonus, for
placing borrowers in loans with relatively higher
yield spread premiums, and therefore borrowers
were steered and encouraged into loans with
terms less favorable than other loans for which
the borrowers could actually qualify.

169.

Plaintiff has a reasonable right to rely on
the facts and disclosures of Countrywide Home
Loans as true and in compliance with all laws.

170.

Plaintiff is informed and believes and
thereon alleges that Countrywide Home Loans
induced Owner into entering into the Loan
based on fraud with the intent to defraud him.

171.

Plaintiff is informed and believes and
thereon alleges that Countrywide lime Loans,
through its Appraiser, made omissions and misrepresentations that are material to this counterclaim with the knowledge of their falsity, thus
misleading Owner into relying upon them and
resulting in the approval of a Loan that he could
not afford.

172.

Plaintiff is informed and believes and
thereon alleges that Countrywide Home Loans
made said omissions and misrepresentations
that are material to this counterclaim with the
knowledge of their falsity thereby misleading
Owners into relying upon them.

App. 62
173.

Plaintiff suffered damages in that they entered into a Loan transaction that Plaintiff
could not afford to pay to purchase a property
with an inflated valuation which resulted in
Owner having negative equity.

174.

As BAC has no standing, as it is not the
holder of the Note and is not the Mortgagee, its
claim against the Owners in the complaint by its
affiliate in a different sue to foreclose against
the Property constitutes slander on Owners’ title.

175.

As BAC has no standing, BAC Tax ID 941687865 IRS Form 1099-A showing figures with
the sinister property market value of $92,500
and principal balance of $174,117.58 are inaccurate and therefore fraud onto the US government. (Exhibit L).

WHEREFORE, Claimant respectfully requests the following relief:
a.

Award Claimant compensatory and punitive damages;

b.

Award such other relief as this Court may
deem just and proper.
(Against CFCA, Todd Stolfa,
Lisa Kerher Board Officers)

176.

The allegations contained in paragraphs 1
through 143 of the counterclaim are realleged
and incorporated herein by reference.

App. 63
177.

The fraudulent acts of CFCA Inc include,
but are not limited to, the following:
a.

Intentionally concealing insurance coverage and misrepresenting maintenance services to induce in purchasing the property
under a pseudo association agreement and
contribute to inflate the property appraised
value.

b.

Falsifying or falling to file proper IRS tax
records to escape federal tax liability (Exhibit M)

c.

Reduce his use to the parking space by the
mean of abusive and reckless towing of vehicle.

d.

Misplacing or not returning in a timely
fashion owner payments in an effort to trigger a foreclosure process.

e.

Neglecting the maintenance of the common
elements causing in excess of $40,000 of
property damages after been notified by
and through legal counsel of the severity of
the situation.

f.

Delayed or preventing BROWARD County
Code enforcement to force the MOLD to be
removed from the unit by the mean of false
statements and misleading deposition to
the County commission.

g.

Entering a fraudulent mediation agreement to induce the Owner to pay money he
did not owe. The property damages cost exceeds the $10,000 agreed in exchange for

App. 64
having the water damages and MOLD REMOVED from the unit within 90 days of the
say agreement.
h.

Frauding upon the Court to enforce one side
of a mediation agreement and sub sequentially altering the terms of the mediation.

i.

Physically injured the Owner by the mean
of TOXIC MOLD exposure find in excess
concentration in the unit.

j.

Applying abusing late fees and erroneous
interest in excess of legal rate to inflate past
dues amount so to force a sale at auction of
the property and to acquire the unit for the
shocking amount of One Dollar. ($1).

k.

Filing Motion in Bad Faith to make it impossible for the Plaintiff to Counter Claim.

178.

That CFCA Inc brought this action without
standing for the purpose of inducing defendant
to pay money that he does not really owned. The
property damages exceed the $10,000 agreed by
over $30,000.

179.

That CFCA Inc and Boards had a fiduciary
duty to the Plaintiff yet has stalked, followed,
harassed, tortuously defamed the owner and
his title, exposed to TOXIC MOLD EXPOSURE
purposely grown in the unit and invaded Owner
privacy and intrude his affairs, so to scare him
away from his property.

180.

That CFCA Inc and Boards brought this action without standing for the purpose of inducing Plaintiff to assign, convey and/or transfer

App. 65
title to his home and to generate interest, late
and attorney fees.
181.

That CFCA Inc, and Boards under MFRS
Form 3140 Section F Condominium Rider to
supplement the deed of trust rider page 2 incorporated below, had a fiduciary duty to request
payment in a timely fashion from the lender if
they had been for any other purpose but inducing defendant to assign, convey and/or transfer
title to his home. The BAC escrow balance attached as Exhibit G shows Owner reserve in an
amount sufficient to cover dues.

F. Remedies. If Borrower does not pay
condominium dues and assessments when due,
then Lender may pay them. Any amounts disbursed by Lender under this paragraph F shall
become additional debt of Borrower secured by
the Security Instrument. Unless Borrower and
Lender agree to other terms of payment, these
amounts shall bear interest from the date of disbursement at the Note rate and shall be payable,
with interest, upon notice from Lender to Borrower requesting payment.
182.

That CFCA Inc and boards engaged in
fraudulent and unfair deceptive acts or practices by arbitrary applying outrageous late fees
and interest in excess of the association by Laws
and legal rates.

183.

That CFCA Inc arbitrary demanded undocumented outrageous Attorney fees exceeding
$10,000 to enforce a Mediation agreement and
to force the property to auction so that they

App. 66
could purchase the unit for the unfair price of
One Dollar ($1) that was sub sequentially sold
back to the bank for the same price.
184.

That CFCA Inc ignored the severity of
TOXIC MOLD Exposure found in high concentration in the unit in an effort to force Eric Ferrier out the property and avoid remediating the
unit.

185.

That CFCA Inc deprived the Owner of the
use of his property by failing to maintain the
common elements, canceling insurance claim,
physically injure the Owner and force him out of
his unit, delayed the process to inflate dues,
make it impossible to Counter claim their foreclosure action and treated INEQUALLY and
UNFAIRLY in regards to his rights to homeownership.

WHEREFORE, Claimant respectfully requests the following relief:
a.

Award Claimant compensatory property
and personal injury damages and punitive
damages.

b.

Award such other relief as this Court may
deem just and proper.

(Against Todd Stolfa)
Uniform Commercial Code § 2-314
and Florida § 718.203 Warranties
186.

The allegations contained in paragraph 1
through 143 of the counterclaim are re-alleged
and incorporated herein by reference.

App. 67
187.

Builder Tood Stolfa made fraudulents representations related to WARRANTIES on the
Condominium property and COSTS to maintain
the property.

188.

Builder Todd Stolfa ignored express demands made by Attorney for remediation and
rescission because the unit was not SALUBRIOUS Condition as WARRANTED by Laws.

WHEREFORE, Claimant respectfully requests the following relief:
a.

Award Claimant compensatory property
and personal injury damages and punitive
damages.

b.

Award such other relief as this Court may
deem just and proper.

THIRD CAUSE OF ACTION
UNFAIR OR DECEPTIVE ACTS OR PRACTICES
(15 USC 45 §5, Fair Credit Reporting Act,
Federal Consumer Fraud and
Deceptive Business Practices Act)
(Against BAC)
189.

The allegations contained in paragraph 1
through 143 of the counterclaim are re-alleged
and incorporated herein by reference.

190.

Countrywide Home Loans engaged in unfair and/or deceptive acts or practices by originating and granting the Loan to Owners who
did not have the ability to repay this Loan
through practices such as, but not limited to:

App. 68
a.

Despite presenting loan application material showing that this would be a full documentation loan, Countrywide Home Loans
approved this Loan under reduced documentation underwriting guidelines in order
to qualify Owners who did not have sufficient income nor assets to obtain the Loan.

b.

Inflating Owner’s income on the loan application to qualify Owners for the Countrywide Loan.

c.

Qualifying Owners for the mortgage loan in
excess of 100% of the real property value
with a variable interest rate no lesser than
10.750% and not to exceed 17.750%

d.

Countrywide Home Loans engaged in unfair and/or deceptive acts or practices by
originating this mortgage loan that exposed
Owners to an unnecessarily high risk of
foreclosure.

e.

Countrywide Home Loans engaged in unfair and/or deceptive acts or practices by implementing a compensation structure that
incentivized brokers and employees to approve loans that did not meet underwriting
standards and failed to exercise sufficient
oversight over the loan process, which, upon
information and belief, were the reasons
why Owners’ Loan was approved.

f.

Relaxing certain underwriting guidelines,
particularly through the company’s reduced
documentation loan program, dramatically

App. 69
increasing the risk that borrowers would be
unable to pay;
g.

Originating mortgage loans that exposed
borrowers to an unnecessarily high risk of
foreclosure or loss of equity, particularly
through risky products like pay option
ARMs;

h.

Originating unnecessarily costly loans to
borrowers;

i.

Engaging in unfair and deceptive marketing and advertising practices to lure borrowers into risky loans;

j.

Incentivizing employee and broker misconduct and the use of unnecessarily costly and
risky loan products; and

k.

Engaging in deceptive practices in the servicing of mortgage loans, resulting in
greater risk of foreclosures.

191.

The conduct of Countrywide Home Loans,
as set forth herein, constitutes unfair, fraudulent and deceptive trade practices prohibited
under the Consumer Fraud Act.

192.

Countrywide Home Loans intended that
Owners rely on its deceptive acts.

193.

Countrywide home Loans’ deception occurred in the course of conduct involving trade
or commerce.

194.

As a result of Countrywide’s unfair, fraudulent and deceptive practices, Owner has suffered
an ascertainable loss of monies and/or property

App. 70
and/or value and ability to acquire real estate
property in the future as the result of his damaged credit profile.
195.

BNY servicing BAC acquired the unit for
the unfair amount of One dollar ($1), claiming a
second time mortgage that had been paid substantially paid off through Federal Reserve,
Fannie Mae or Freddie Mac and TARP funds.

196.

Owner has suffered actual damages as a direct and proximate result of the actions of Countrywide in violation of the Consumer Fraud Act.

197.

That upon information and belief BAC repeatedly and CONTINUE TO REPORT false,
negative information on defendant’s credit report
in violation of the federal Fair Credit Reporting
Act causing defendant to suffer damages.

198.

That BAC has committed numerous frauds
in the course of attempting to collect this alleged
debt, some or all of which constitute crimes under federal, state or local law. Crimes committed
in the course of attempting to collect a debt are
violations of the Federal Fair Debt Collection
Practices Act including but not limiting not
serving the foreclosure complaint, filed in a separate sue by BNY servicing BOA, on Evan Rosen
PA who was authorized to represent the Owner.

WHEREFORE, Claimant respectfully requests the following relief:
a.

Impose a civil penalty against BAC found
by the court to have engaged in any method
or practice declared unlawful under Federal

App. 71
Consumer Fraud and Deceptive Business
Practices Act.
b.

Require BAC to pay the costs of this action.

c.

Awarding such other relief as this Court
may deem just and equitable.

THE MORTGAGE-BACKED SECURITIES TRUST
199.

Countywide was fully aware that the Loan
was funded by CWALT. MBS Investors pursuant
to the Pooling and Servicing Agreement and
that Owners’ Mortgage should have been assigned to the Trust.

200.

Under “CONVEYANCE OF MORTGAGE
LOANS” FROM PROSPECTUS PSA PG 52-53
“(a) Each Seller (CHL), concurrently with the
execution and delivery hereof, hereby sells,
transfers, assigns, sets over and otherwise conveys to the Depositor (COUNTRYWIDE BANK
FSB), without recourse, all its respective right,
title and interest in and to the related Initial
Mortgage Loans, including all interest and principal received or receivable by such Seller, on or
with respect to the applicable Initial Mortgage
Loans after the Initial Cut-off Date and all interest and principal payments on the related Initial Mortgage Loans received prior to the Initial
Cut-off Date in respect of installments of interest and principal due thereafter, but not including payments of principal and interest due and
payable on such Initial Mortgage Loans, on or
before the Initial Cut-off Date. (C) (i) The original Mortgage Note endorsed by manual or

App. 72
facsimile signature in blank in the following
form: “Pay to the order of ___ without recourse,”
with all intervening endorsements showing a
complete chain of endorsement from the originator to the Person endorsing the Mortgage Note
(each such endorsement being sufficient to transfer all right, title and interest of the party so endorsing, as note holder or assignee thereof in and
to that Mortgage Note); or(A)with respect to any
Lost Mortgage Note, a lost note affidavit from
Countrywide stating that the original Mortgage
Note was lost or destroyed, together with a copy
of such Mortgage Note.
201.

The CWALT Inc Trust was a non-MERS
member, so that once the loans were sold to the
Trust, neither MERS nor Countrywide had the
ability or the right to assign, sell or otherwise
transfer ownership. Thus, the assignment by
Countrywide to BAC, its successors and assigns,
of all right, title and interest in the Mortgage
executed by Owners to MERS solely as nominee
for Countrywide had no legal effect and was not
a proper assignment.

202.

As BAC lacks standing to pursue this foreclosure complaint against Owners, this action is
a slander on Owners’ Title.

203.

Owners request that this Court declare that
BAC has no legal Mortgage on the Property and
that its Mortgage as assigned should be removed from Owners’ title.

App. 73
REQUEST FOR RELIEF
WHEREFORE, Claimant respectfully requests the
following relief:
I.

An evidentiary hearing regarding the authenticity of the backdated mortgage assignment
created in-house, the appraisal of the property
and in regards to late fees and interest and attorney fees claimed by CFCA Inc.

II.

A judgment declaring CFCA Inc & Board Officers in breach of its duty of care to Eric Ferrier,

III.

A judgment against CFCA Inc awarding Eric
Ferrier compensatory damages for the property
stigma value, body injury damages, mental anguish, emotional distress and the deprivation of
the use of his property, the future ability to acquire real estate as the result of his damaged
credit.

IV.

A judgment against CFCA Inc Board Officers
awarding punitive damages under Section 3613(c)
of the FHA in the amount of $25,000.

V.

Quash BNY service of due process

VI.

Declare that BAC has no mortgage interest in
the Property; OR a judgment ordering BAC rescission of the mortgage to ERIC FERRIER for
interests and fees.

VII.

A judgment against BAC awarding punitive
damages under Section 3613(c) of the FHA in
the amount of $25,000.

VIII. Bar BAC and any and all persons claiming or
having any interest in the Property through it

App. 74
from asserting or claiming any interest, right or
title in or to the Property, or any part thereof,
adverse to the title of Plaintiff; and Award Owners such other and further relief as equity may
require, including, but not limited to, further declaratory and injunctive relief against BAC,
CFCA Inc, Todd Stolfa and Lisa Kerher.
Respectfully submitted, Dated: August 10, 2017
By: /s/ Eric Ferrier
Eric Ferrier Pro-Se
178 Columbus Ave #237002
New York, NY 10023
Ph: 646 450-2923
Fax: 646 619-484

App. 75
IN THE UNITED STATED DISTRICT COURT
FOR THE SOUTHER DISTRICT OF FLORIDA
CASE NO. 17-CV-61597-JEM
ERIC FERRIER
Plaintiff,
v.
CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC., BANK OF
AMERICA, N.A., LISA KEHRER,
TODD STOLFA
Defendants.

/

CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC.’S MOTION FOR STAY
OF PROCEEDINGS OR, ALTERNATIVELY,
MOTION TO DISMISS WITH PREJUDICE
Defendant, CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC. (hereinafter referred to as “CASCADE FALLS”), by and through the undersigned counsel and pursuant to the Federal Rules of Civil
Procedure, hereby files its Motion to Stay Proceedings
or Alternatively, Motion to Dismiss the Plaintiff ’s
Complaint, and states:
1. On or about August 10, 2017, Plaintiff filed the
subject Complaint in the Southern District of Florida
against CASCADE FALLS (hereinafter referred to as
the “2017 SD Lawsuit”)

App. 76
2. Last year, Plaintiff filed a nearly identical
Complaint in the Southern District of Florida, Case
Number 16-cv-61124-MGC, which he entitled Counterclaim and Complaint, through the attempted used of a
Notice of Removal from Broward County State Court.
(hereinafter referred to as the “2016 SD Lawsuit”).
Both the 2016 SD Lawsuit and the 2017 SD Lawsuit
are based entirely on the same set of operative facts,
which date back to 2010. These same issued have been
litigated and re-litigated in no less than three (3) jurisdictions and more than five (5) pleading formats.
3. On November 22, 2016, the 2016 SD Lawsuit
was remanded to state court. The Court held that, in
addition to being untimely, the 2016 SD Lawsuit did
“not raise viable claims under either federal question
or diversity jurisdiction.” See Order Remanding Case
to State Court attached hereto as Exhibit A.
4. Notwithstanding the Court’s Order remanding the 2016 SD Lawsuit to state court, Plaintiff again
re-filed the Counterclaim against the parties together
with a Motion for Clarification and reconsideration on
June 1, 2017.
5. On June 23, 2017, the Court entered an Order
Staying the 2016 SD Lawsuit until such time as the
Court ruled on Plaintiff ’s Motion for Clarification and
Reconsideration. See Order Staying Prior SDF Pleading attached hereto as Exhibit B. To date, the Honorable Judge Cooke has not lifted the stay or ruled on the
pending motion.

App. 77
6. As can be seen from Plaintiff ’s recent Notice
of Pending, Re-filed, Related or Similar Actions, there
have been a number of Complaints filed asserting the
same set of operative facts [D.E. 5]. While Plaintiff ’s
Notice of Similar Actions identifies a related case previously filed in the Southern District of New York
(Case Number 15-CV-5091)1, it fails to identify the
2016 SD Lawsuit.
7. Based upon CASCADE FALLS’ interpretation
of the allegations contained in the Complaints (both
the 2016 SD Lawsuit and the 2017 SD Lawsuit), Plaintiff has asserted a number of claims against CASCADE
FALLS on the basis of a its alleged breach of a 2011
settlement agreement, a foreclosure action which took
place in 2012, and bodily injury which Plaintiff claims
he suffered as a result of mold while he was present at
the subject premises (prior to 2012). On the basis of
these operative facts, Plaintiff has asserted the following causes of action against CASCADE FALLS: (1) Fair
Housing Discrimination; and (2) Fraud.
8. On the basis of the above procedural history
and pending related 2016 SD Lawsuit, CASCADE
FALLS requests that the Court stay this action pending the resolution of the 2016 SD Lawsuit pending in
the Southern District of Florida case under the Honorable Judge Cook (Case Number 16-CV-61124-MGC).

1

The United States Southern District of New York Case referenced above was remanded to the 17th Judicial Circuit Court
of the State of Florida, Broward County on July 17, 2015 and
remains closed at this time.

App. 78
9. Alternatively, CASCADE FALLS requests
that this Honorable Court dismiss the Complaint on
the following bases. First, these matters have previously been litigated, final judgments have been entered as to these operative facts, and the claim is
barred by res judicata. Second, this matter should be
dismissed because it is barred by the statute of limitations. Third, Plaintiff has failed to join indispensable
parties.
ADDITIONALLY RELEVANT
PROCEDURAL HISTORY
10. The central facts which are relevant to this
matter date back to 2011 and 2012. At the outset, Paragraph 19 of Plaintiff ’s Complaint addresses a settlement agreement which was entered into on or about
April 11, 2011, which required Plaintiff to pay a certain sum of money to CASCADE FALLS towards the
past due maintenance obligation owed to it as the Condominium Association. Due to Plaintiff ’s subsequent
default on this agreement, a Final Judgment of Foreclosure was entered on August 9, 2012 in Broward
County Case Number CACE 10041941 (hereinafter referred to as “2010 Broward Lawsuit”). The Certificate
of Sale for the subject premises is dated September 13,
2012. See Certificate of Title for the Subject Premises
attached hereto as Exhibit C. Accordingly, Plaintiff has
not had legal possession of the subject premises in over
five (5) years.

App. 79
11. As a result of numerous attempts to re-litigate
this set of operative facts, on July 26, 2016, Broward
County State Court deemed Plaintiff, ERIC FERRIER,
a Vexatious Litigant, prohibiting him from filing any
pro se actions without leave of Court. See Order on Motion to Prohibit Pro Se Actions Without Leave of Court
and Directions to the Clerk attached hereto as Exhibit
D.
A. Motion to Stay the Proceedings or Alternatively, Motion to Dismiss the Complaint
Based Upon the Doctrine of Res judicata.
12. This matter invokes numerous considerations of the doctrine of res judicata. First, as noted
above, and as is apparent from the Plaintiff ’s own
Complaint, this matter arose from a 2010 Broward
County foreclosure case which had a final disposition
entered in 20122. As noted above, prior to filing this
lawsuit, Plaintiff filed the 2016 SD Lawsuit, which mirrors the allegations in the above referenced action. As
noted above, the Court entered an order which may bar
the subject action. The Court held that the 2016 SD
Lawsuit (with substantially similar allegations) did
“not raise viable claims under either federal question
or diversity jurisdiction.” See Exhibit A. These findings,

2

Due to Plaintiff ’s repeated attempts at attempting to reopen and litigate this same claim through the use of a Denovo
Complaint in Broward County, Florida, a second final order of
dismissal with prejudice was also entered on November 4, 2014.

App. 80
if reaffirmed by the Court, may serve to bar the subject
lawsuit under the doctrine of res judicata.
13. Under Federal law, the doctrine of res judicata “bars the filing of claims which were raised or
could have been raised in an earlier proceeding.” Ragsdale v. Rubbermaid, Inc., 193 F.3d 1235, 1238 (11th
Cir.1999). An action is barred by prior litigation if the
“following elements are present: (1) there is a final
judgment on the merits; (2) the decision was rendered
by a court of competent jurisdiction; (3) the parties, or
those in privity with them, are identical in both suits;
and (4) the same cause of action is involved in both
cases.” Id. As discussed above, the facts and parties of
both the 2016 SD Lawsuit and the 2017 SD Lawsuit,
as well as the 2010 Broward Lawsuit, arise from the
same operative facts and circumstances.
14. CASCADE FALLS respectfully requests that
this Court grant a motion for stay of the proceedings
until such time as the stay in the 2016 SD Lawsuit
(Case Number 16-CV-61124-MGC) is lifted and the
Honorable Judge Cooke enters an order on its merits,
as issues of collateral estoppel and res judicata are present and may bar the present claim.
15. Alternatively, CASCADE FALLS requests
that this Court grant its motion dismissing the Complaint because the claims are barred by the doctrine of
res judicata based upon its prior litigation and the final order entered in the 2010 Broward Lawsuit.

App. 81
B. Defendant’s Alternative Motion to Dismiss
As Being Barred by the Statute of Limitations or for Failure to Include and Indispensable Party.
16. Should the Court deny the Motion to Stay the
Proceedings set forth above, CASCADE FALLS alternatively seeks dismissal with prejudice on the following grounds.
a. This Matter Should be Dismissed Because It Is Barred by the Statute of Limitations and Plaintiff has Failed to State
a Cause of Action.
17. Plaintiff ’s claim is barred by the statute of
limitations for violations under the Fair Housing Act
and Fraud. Dismissal of a federal action is appropriate
based statute of limitations grounds if the fact that the
case is time barred is apparent from the face of the
Complaint. See La Grasta v. First Union Securities,
Inc., 358 F. 3d 840 (11th Cir. 2004).
18. As to the first cause of action for Fair Housing Discrimination, a person may commence a civil action no later than two (2) years after the occurrence or
the termination of an alleged discriminatory housing
practice. 42 U.S.C. §3613(a)(1)(A). As set forth above,
and based upon the facts gleaned from Plaintiff ’s Complaint, the Plaintiff has not had legal ownership of the
subject premises since September 13, 2012, more than
five (5) years ago. Plaintiff ’s Fair Housing Act claim
against CASCADE FALLS must be dismissed, as the

App. 82
two (2) year statute of limitations expired more than
three (3) years ago, and remains time barred.
19. As to the second cause of action, Plaintiff appears to be making a claim for Fraud under 11 U.S.C.
§548 and 18 U.S.C. §1344. An action proceeding under
11 U.S.C. §548 may not be commenced after the earlier
of
(1) the later of (A) 2 years after the entry of
the order for relief; or (B) 1 year after the appointment or election of the first trustee . . . ”
or
(2)

the time the case is closed or dismissed.

11 U.S.C. §546.
20. Importantly, and as a preliminary fact, 11
U.S.C. §548 applies to avoidance of trustee transfers.
This statute is not applicable to CASCADE FALLS,
which is a condominium association. Notwithstanding
the substantive application of the statute however, the
statute of limitations clearly bars this cause of action.
21. Similarly, an action proceeding under 18
U.S.C. §1344 does not apply to the present matter, as
this it a criminal statute addressing criminal bank
fraud against a financial institution, and may not be
asserted by an individual. See 18 U.S.C. §1344(1)-(2).
Finally, should Plaintiff be seeking to make a claim
under Florida’s common law for fraud, the statute of
limitations is four (4) years. Fla. Stat. 595.11(3)(f ).
22. CASCADE FALLS requests that the First
and Second Cause of Action for Fair House Act

App. 83
violations and Fraud be dismissed with prejudice for
failure to state a cause of action and because the claims
are barred by the statute of limitations.
b. This Matter Should be Dismissed for Failure to Include an Indispensable Party.
23. Federal Rule of Civil Procedure 12(b)(7) provides that a failure to join a required party under Rule
19 may be raised by a motion to dismiss. Fed. R. Civ. P.
12(b)(7). A required party to a lawsuit is a party who
must be joined as a party if the court cannot accord
complete relief among existing parties; or that person
claims an interest related to the subject action and disposing of the action may impede the person’s ability to
protect their interest. Fed. R. Civ. P. 19(a)(1).
24. Plaintiff ’s Request for Relief includes a request for the Court to “Bar BAC and any and all persons claiming or having any interest in the Property”
from claiming any interest, right or title to the property.
25. Given that Plaintiff has not lived on the
premises since no later than 2012, there are believed
to be tenants, owners and/or lenders that have an interest in the subject premises which will be directly
impacted should the Court grant Plaintiff ’s requested
relief. Plaintiff ’s failure to include the current owner
or lenders to the subject premises should bar the Complaint, as such parties are indispensable to the action,
as pleaded.

App. 84
WHEREFORE, the Defendant, CASCADE FALLS
CONDOMINIUM ASSOCIATION, INC., respectfully
requests that this Honorable Court grant the Motion
for Stay of the Proceedings until after the Honorable
Judge Cooke lifts the stay and enters an order in the
related Case Number 16-CV-61124-MGC, or alternatively, grant the Motion to Dismiss with Prejudice, and
any other relief it deems just and proper.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy
of the foregoing was served via U.S. Mail, Facsimile
(646) 619-4844 and electronic mail upon Eric Ferrier,
Pro se 178 Columbus Avenue #237002, New York NY
10023; ejferrier@gmail.com; efcase@outlook.com this
28th day of September, 2017.
LYDECKER | DIAZ
Counsel for Plaintiff
1221 Brickell Avenue, 19th Floor
Miami, Florida 33131
(305) 416-3180 – Phone
(305) 416-3190 – Fax
By: /s/ Jessica LaFaurie
EMANUEL GALIMIDI, ESQ.
Florida Bar No.: 666831
JESSICA LAFAURIE, ESQ.
Florida Bar No.: 105304

App. 85
Cynthia Pyles-Hosein
From:
cmecfautosender@flsd.uscourts.gov
Sent:
Friday, June 23, 2017 12:11 PM
To:
flsd_cmecf_notice@flsd.uscourts.gov
Subject:
Activity in Case 0:16-cv-61124-MGC
Cascade Falls Condominium Association, Inc. et al Ferrier Order Staying
Case
This is an automatic e-mail message generated
by the CM/ECF system. Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and parties in a case
(including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript,
the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 6/23/2017 at
12:11 PM EDT and filed on 6/23/2017

App. 86
Case Name: Cascade Falls Condominium Association, Inc. et al v. Ferrier
Case Number:

0:16-cv-61124-MGC

Filer:
WARNING: CASE CLOSED on 11/22/2016
Document Number: 49(No document attached)
Docket Text:
ENDORSED ORDER STAYING CASE. This matter is before me upon review of the record. A district court has broad discretion in determining
whether a stay is appropriate. Clinton v. Jones,
520 U.S. 681, 706 (1997). I find that a stay of this
case and any pending deadlines is appropriate
until such time as I rule on Defendant Ferriers
[44] Motion for Clarification and Reconsideration. Signed by Judge Marcia G. Cooke on
6/23/2017. (ase)
0:16-cv-61124-MGC Notice has been electronically mailed to:
Ariel Acevedo aa@lgplaw.com, aas@lgplaw.com,
service@lgplaw.com, ytc@lgplaw.com
Catherine Ann Mancing CAL@lgplaw.com,
CAM@lgplaw.com, aas@lgplaw.com
Emanuel Galimidi eg@lydeckerdiaz.com,
cgayle@lydeckerdiaz.com, cph@lydeckerdiaz.com,
dbeaz@lydeckerdiaz.com
Eric Ferrier efcase@outlook.com
Jessica Lynn Lafaurie jlf@lydeckerdiaz.com

App. 87
0:16-cv-61124-MGC Notice has not been delivered
electronically to those listed below and will be
provided by other means. For further assistance,
please contact our Help Desk at 1-888-318-2260.:

App. 88
In the Circuit Court of the
Seventeenth Judicial Circuit
In and for Broward County, Florida
CASCADE FALLS CONDO
ASSN INC
Plaintiff
VS.
FERRIER, ERIC
Defendant

CACE-10-041941
Division: 03

Certificate of Title
The undersigned, Howard C. Forman, Clerk of the
Court, certifies that he executed and filed a certificate
of sale in this action on September 12, 2012, for the
property described herein and that no objections to the
sale have been filed within the time allowed for filing
objections.
The following property in Broward County, Florida:
Unit 4 of CASCADE FALLS CONDOMINIUM, according to the Declaration of Condominium thereof, as recorded in Official
Records Book 42930, Page 1965, of the Public
Records of Broward County, Florida.
Parcel I.D. Number: 19235-14-02000
a/k/a: 530 NE 15th Court, Unit 4, Ft. Lauderdale, Florida 33304

App. 89
Was sold to: CASCADE FALLS CONDOMINIUM ASSOCIATION, INC., A FLORIDA NOT FOR PROFIT
CORPORATION
C/o Holly Eakin Moody, PA, 2900 E. Oakland Park Blvd
Fort Lauderdale, FL, 33306
Witness my hand and the seal of this court on November 15, 2012.
[SEAL]

/s/ Howard C. Forman
Howard C. Forman,
Clerk of Circuit Courts
Broward County, Florida

Total consideration: $100.00
Doc Stamps: $0.70

App. 90
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
December 2, 2020
Clerk
United States Court of Appeals for the
Eleventh Circuit
56 Forsyth Street, N.W.
Atlanta, GA 30303
Re: Eric Ferrier
v. Cascade Falls Condominium Association,
Inc., et al.
No. 20-762
(Your No. 19-14224)
Dear Clerk:
The petition for a writ of certiorari in the above
entitled case was filed on November 27, 2020 and
placed on the docket December 2, 2020 as No. 20-762.
Sincerely,
Scott S. Harris, Clerk
by
Clayton Higgins
Case Analyst

